    The Department of Labor
   Office of Inspector General’s
Semiannual Report to the Congress
   is available on the Internet!

     Sign up to receive an email message notifying you when
     the report is available for download from our website by
        sending an email to LaborOIGinf    o@oig.dol.go
                               aborOIGinfo@oig.dol.go
                                           o@oig.dol.govv.

                               Instant Delivery
                             Keyword Searchable
               Easy to Forward to Colleagues/Constituents
                            Save Space Archiving
                                  Save Paper

Ta k e a d v a n t a g e o f t h i s i m p r o v e d m e t h o d o f d e l i v e r y .




 LaborOIGinfo@oig.dol.gov
United States Department of Labor
Office of Inspector General




Semiannual Report to the Congress
April 1, 2002BSeptember 30, 2002
Volume 48
                                   Selected Statistics of the OIG
                                             for the Period
                                  April 1, 2002–September 30, 2002

    Investigative Recoveries, Cost Efficiencies, Restitutions,

          Fines/Penalties, Forfeitures, and Civil Monetary Action ............... $186.4 million

    Total Questioned Costs......................................................................... $28.8 million

    Outstanding Questioned Costs Resolved During this Period................ $13.3 million

         Allowed.............................................................................................. $5.2 million

         Disallowed......................................................................................... $8.1 million

    Audit Reports Issued............................................................................................. 36

    Evaluation Reports Issued ...................................................................................... 3

    Cases Opened .................................................................................................... 194

    Cases Closed...................................................................................................... 282

    Cases Referred for Prosecution.......................................................................... 170

    Cases Referred for Administrative/Civil Action...................................................... 78

    Indictments.......................................................................................................... 229

    Convictions.......................................................................................................... 205

    Debarments........................................................................................................... 17


Note:    The OIG conducts criminal investigations of individuals that can lead to prosecutions (“convictions”) by
         criminal complaints, warrants, informations, indictments, or pretrial diversion agreements. Successful
         prosecutions may carry sentences such as fines, restitutions, forfeitures, or other monetary penalties.
         The OIG financial accomplishments, which include administrative and civil actions, are further detailed
         and defined in the appendix of this report.
                                                                      Inspector General’s
                                                                           Message



This Semiannual Report to the Congress represents the work of the U.S. Department of Labor
(DOL) Office of Inspector General (OIG) during the six-month period April 1, 2002, through
September 30, 2002. The OIG is committed to serving American workers and taxpayers by
conducting audits, investigations, and evaluations that result in improvements in the effectiveness,
efficiency, and economy of departmental programs and operations and detecting and preventing
fraud and abuse in DOL programs and labor racketeering in the American workplace.

Our audit work during this period resulted in nearly $30 million in total questioned costs. OIG audits
continue to raise concerns about the performance and accountability of grants, particularly those
administered by the Employment and Training Administration (ETA), which issues over $10 billion
in grants annually. For example, we conducted performance audits of several H-1B technical skills
grants intended to help both employed and unemployed U.S. workers acquire technical skills for
positions currently filled by foreign workers on H-1B visas. We found that some of the grantees
failed to achieve their intended employment outcomes for participants or did not know what those
employment outcomes were. In addition, several grantees had questionable expenditures that
could have been avoided had detailed subcontractor program and budget information been
provided and evaluated by both ETA and the grantees prior to the awarding of the grants. We also
conducted a performance audit that found ETA has little assurance that state-reported Workforce
Investment Act (WIA) performance outcomes data are either accurate or verifiable, making it
difficult for ETA to adequately assess the effectiveness of WIA training programs. We are working
with the Department to help assess these weaknesses in its grant accountability procedures and
to draft potential solutions.

In this reporting period, we also evaluated the Department’s Domestic Child Labor Program. Our
evaluation found that the Department needs to update its listing of occupations in the non-
agricultural sectors found to be particularly hazardous or detrimental to the health or well-being of
young workers. In addition, the Department has not updated the management and investigative
tools used to determine child labor law compliance.

During this reporting period, our investigative work resulted in over $186 million in investigative
recoveries, restitutions, fines, and penalties; 229 indictments; and 205 convictions. We continue to
focus on corruption involving the monies in union-sponsored pension and health and welfare
benefit plans. For example, a former FBI agent and investment advisor for an International
Longshoremen’s Association (ILA) local pled guilty to embezzlement and money laundering for his
role in diverting over $500,000 in pension fund money into personal real estate investments. Also,
two California investment brokers for Capital Access, Inc., were ordered to pay nearly $2 million
each in restitution for their roles in a $4 million investment scheme in which the money was diverted
into ventures other than what was represented and then used to support their lifestyles. Cases in
the labor racketeering area include an indictment of 17 members of the Gambino Crime Family for
various crimes, including racketeering and extortion, that involved corruptly influencing ILA locals
and members on the New York and New Jersey waterfronts, among others. We also continue to
see a proliferation of fraud schemes committed against DOL programs such as the Black Lung
program and the foreign labor certification programs. For example, two Virginia doctors were
sentenced and ordered to pay $2 million in restitution for their role in defrauding the Black Lung
program of over $1.5 million by billing for excessive and unnecessary medical treatments and
supplies. In another case, a Virginia immigration attorney was sentenced and ordered to pay
restitution for defrauding clients who were seeking work visas of over $350,000.
  Inspector General’s
       Message



In addition, we complemented our traditional audit and investigative work by providing the
Department with Unemployment Insurance and Federal Employees’ Compensation Act fraud
training at the national and state levels, as well as technical assistance to improve a number of
management functions, particularly with respect to grant accountability, data validation, and
employee security.

I am proud of the diligent work of all OIG employees and their continued commitment to serving
American workers and taxpayers. My staff and I look forward to continuing to work constructively
with the Secretary and the DOL team to further our common goal of ensuring the effectiveness,
efficiency, and integrity of the programs that serve and protect the American workforce.




Gordon S. Heddell
Inspector General
                                                                                                     Table of Contents




Executive Summary .................................................................................................................... 4

Top DOL Management Challenges ............................................................................................ 6

Employment and Training .......................................................................................................... 9
     Foreign Labor Certification Programs ................................................................................... 11
     Welfare-to-Work Program ..................................................................................................... 16
     Workforce Investment Act Programs .................................................................................... 18

Worker Benefits Programs .......................................................................................................21
     Unemployment Insurance Program ...................................................................................... 23
     Office of Workers’ Compensation Programs ......................................................................... 25
           Medical Provider Fraud ................................................................................................... 25
           Claimant Fraud ................................................................................................................ 26
     Domestic Child Labor Program ............................................................................................. 27

Worker Safety, Health, and Workplace Rights ....................................................................... 29
     Occupational Safety and Health Administration .................................................................... 31
     Davis-Bacon Act .................................................................................................................... 33

Departmental Management ...................................................................................................... 35
     Information Technology ......................................................................................................... 37
     Single Audit Reports ............................................................................................................. 40

Labor Racketeering ................................................................................................................... 43
     Benefit Plan Investigations .................................................................................................... 45
     Internal Union Investigations ................................................................................................. 48


Legislative Recommendations ................................................................................................ 51

Appendix .................................................................................................................................... 55
     Reporting Requirements ....................................................................................................... 56
     Top DOL Management Challenges ....................................................................................... 57




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                                              3
    Executive Summary


Employment and Training

The OIG looked at six grantees under the H-1B technical skills training grants, which received a
total of $15.4 million and were intended to serve nearly 3,000 participants. Overall, we found that
training was implemented and target populations were served. However, none of the participants
in two of the grants obtained employment or upgrades in occupations for which they were trained.
Two other grantees did not track placements and, therefore, employment outcomes were unknown.
In addition, we questioned over $1.6 million in costs. ................................................................. 11

A former State Department engineer pled guilty after an investigation revealed that he was involved
in preparing fraudulent applications for alien employment certification. ..................................... 14

A Virginia store owner was sentenced for visa fraud after an investigation revealed that the majority
of the labor certification applications he had filed were fraudulent. ............................................ 15

Following the OIG’s issuance of a March 2002 audit report, ETA terminated a $4.7 million Welfare-
to-Work competitive grant that had been awarded to Madison County, Alabama. As a result of
the grant’s termination, approximately $3 million in unspent funds will be returned to the
Department. ................................................................................................................................ 17

We conducted a performance audit to determine what oversight and monitoring procedures were
in place to ensure that state-reported WIA performance data were accurate and supportable. We
found that DOL has little assurance that the state-reported WIA performance outcomes data are
accurate. ..................................................................................................................................... 18

ETA has reported that states had large amounts of unspent WIA funds during FY 2002, while states
have contended that ETA’s financial portrayal was misleading and failed to consider valid financial
obligations. We completed a review of Ohio, which received $261 million in WIA grants, and found
that the State had reported the entire $261 million as obligated and had spent only $93 million
as of December 1, 2001. ............................................................................................................. 19



Worker Benefits Programs

Twelve of 23 individuals indicted in connection with an Unemployment Insurance check
counterfeiting scheme have pled guilty and received sentences as of this semiannual reporting
period. The group counterfeited Missouri State Unemployment Insurance checks as well as checks
from the State of Illinois and other entities. ................................................................................. 23

Two physicians were sentenced for their roles in defrauding the Black Lung program of over
$1.5 million. The investigation found that they billed and received payment from the Black Lung
program for excessive office visits and unnecessary medical treatments and supplies. ............ 25

The OIG conducted an evaluation of DOL’s Domestic Child Labor program and recommended
several changes to improve the program. For example, we found that DOL has not been consistent
in the development and execution of outreach programs and beneficial relationships with Federal,
state, and local employment issuance and regulatory agencies. ................................................ 27




                                                                                                     Semiannual Report to the Congress
4                                                                                                     April 1, 2002–September 30, 2002
                                                                                                      Executive Summary


Worker Safety, Health, and Workplace Rights

We conducted a performance audit to determine how effective the Occupational Safety and Health
Administration (OSHA) was in establishing strategic partnerships and whether these partnerships
were making an impact in improving safety and health conditions in the workplace. We identified
examples of partnership successes but found that, despite OSHA’s outreach efforts, the program
was having a limited national impact because of the relatively few partnerships that had been
established and the small number of employers that were participating. ................................... 31



Departmental Management

During this reporting period, the OIG performed a number of computer security audits, in
accordance with the Government Information Security Reform Act. While the efforts by the
Department and its component programs are notable, we continue to identify areas where
improvements are needed. ......................................................................................................... 38

During this reporting period, the OIG forwarded to DOL 17 Single Audit Act audit reports for action
and follow-up. These 17 reports questioned over $27 million in DOL funds and contained
89 material findings. .................................................................................................................... 40



Labor Racketeering

A physician was sentenced after being found guilty of defrauding 11 prominent Chicago-based
union health and welfare funds, including those of the Teamsters, Laborers, and others, by billing
in excess of $400,000 in unnecessary and expensive medical services. ................................... 45

A former registered investment advisor for Indiana-based Local 1969 of the International
Longshoremen’s Association (ILA), pled guilty to embezzlement from an employee benefit
plan. The advisor admitted that he converted over $500,000 of pension fund monies for his own
use. ............................................................................................................................................. 46

The principal owner of Capital Consultants, an investment company, pled guilty during this
reporting period to mail fraud and assisting in the preparation of a false tax return. The investigation
found that Capital Consultants defrauded dozens of union pension funds. ................................ 47

Seventeen members and associates of the Gambino Organized Crime Family, including Gambino
Family boss Peter Gotti, were charged in a 68-count indictment for crimes including racketeering,
extortion, gambling, money laundering, and wire fraud. Allegedly, these individuals corruptly
influenced unions and businesses on the New York and New Jersey waterfronts. .................... 48

A former secretary-treasurer of ILA Local 1349 was sentenced after pleading guilty
to embezzlement of labor funds by a union officer. The investigation revealed that he embezzled
over $91,000. .............................................................................................................................. 50




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                                                   5
    Top DOL Management
         Challenges


                     At least annually, the OIG identifies and reports on what it considers to
                     be the most serious management challenges facing the Department of
                     Labor. Following is a synopsis of the top management challenges as of
                     this semiannual reporting period. The full report is included in the
                     appendix of this Semiannual Report.


     Grant Accountability, Performance,
     and Effectiveness

                     The Department continues to face challenges in providing accountability
                     for the costs and results of its grant programs, which comprise some
                     $9.5 billion in funding. The OIG has worked with ETA, DOL’s largest
                     grantor agency, to help assess weaknesses in its grant accountability
                     procedures and to develop potential solutions. Recent OIG audits
                     detailed in this report serve to illustrate accountability problems in the
                     grant award, execution, reporting, and oversight processes. In
                     April 2002, ETA took a significant step toward improving accountability
                     when it issued a grant/contract administration implementation plan that
                     addressed many of the OIG’s concerns. In addition, concerns previously
                     raised with Bureau of International Labor Affairs’ grant program have
                     largely been addressed, with financial information improvements
                     remaining.

     WIA Program Implementation

                     Both increased accountability and state and local flexibility are among
                     the seven key principles embodied in the Workforce Investment Act of
                     1998. As WIA reauthorization is debated in 2003, the Department will be
                     challenged to work with the Congress in drafting replacement legislation
                     and issuing implementing regulations that strike an appropriate balance
                     between the sometimes competing interests of accountability and
                     flexibility that have resulted in inconsistent program guidance.

     Financial Performance

                     Over the past several years, the Department has achieved a high level of
                     financial management discipline that has resulted in clean audit opinions
                     on its financial statements since FY 1997. Nonetheless, the Department
                     faces significant challenges in producing timely financial information that
                     can be used in its day-to-day management. Another challenge in this area
                     is the adequacy of information being provided to the Department via audit
                     reports conducted by independent public accountants or state auditors
                     under the Single Audit Act (SAA). In our reviews of six audits conducted
                     under the SAA, we found serious deficiencies, including inadequate
                     sampling, which would make the reports unreliable.



6                                                               Semiannual Report to the Congress
                                                                 April 1, 2002–September 30, 2002
                                                                      Top DOL Management
                                                                           Challenges


    Accountability: Budget and
    Performance Integration

                            Performance budgeting is a major focus of the President’s Management
                            Agenda, which calls for further integrating budget and performance to
                            foster a results-oriented Department that is guided by performance
                            rather than process. To this end, the Department has taken initial steps
                            toward instituting a performance budget for FY 2004. Key to the
                            Department’s success in this area is effective strategic planning and
                            development of the capability to generate reliable, timely, and auditable
                            performance results and cost data for its programs.

    Security of Pension Assets

                            Currently, there are over 6 million private employee benefit plans
                            covering 150 million people and containing nearly $5 trillion in assets.
                            Given the size of this universe, protecting pension assets poses a
                            significant challenge for the Department. Over the years, the OIG has
                            advocated that ERISA be amended in order to increase protections for
                            pension plan participants. In particular, we have recommended that
                            provisions in ERISA that allow auditors to exclude certain assets from
                            the audit scope be repealed and that plan auditors be required to report
                            any ERISA violations directly to the Department. More recently, we have
                            identified the need for more clarity and guidance relative to the
                            computation of participant benefits with respect to cash balance plans, a
                            growing segment of the pension universe.

                            Another area of concern involves the security of the billions of dollars in
                            assets in private pension plans, which are an attractive target to organized
                            crime elements, corrupt pension plan officials, and individuals who
                            influence the investment activity of pension assets. In particular, OIG labor
                            racketeering investigations continue to show that the security of the assets
                            within Taft-Hartley plans, which are jointly administered by labor union
                            representatives and management representatives, is at risk.

    Protection of Worker Benefit Funds

                            Safeguarding Federal employee benefits programs administered by the
                            Department of Labor is a formidable challenge, given the existing
                            vulnerabilities and the sheer scope of these programs, which affect the
                            lives of millions of workers and retirees and involve billions of taxpayer
                            dollars. The OIG continues to identify vulnerabilities involving financial
                            stability and program integrity within the unemployment insurance and
                            disability compensation programs of the Department.




Semiannual Report to the Congress                                                                      7
April 1, 2002–September 30, 2002
    Top DOL Management
         Challenges

     Information Technology and
     Electronic Government

                      The expansion of electronic government is also among the aims of the
                      President’s Management Agenda. This presents challenges for the
                      Department, such as the security of its information technology (IT) assets,
                      the seamless implementation of its new IT architecture, and the integrity
                      of its benefits programs in an electronic government environment.

     Integrity of Foreign Labor
     Certification Programs

                      The Department’s foreign labor certification programs provide employers
                      access to foreign labor. OIG investigations continue to identify fraud in
                      these programs, particularly the H-1B program, which may result in
                      economic harm to American workers and businesses, exploitation of
                      foreign workers, and security risks associated with aliens who are
                      admitted to this country by fraudulent means. The OIG believes that if the
                      Department is to have a meaningful role in the labor certification process,
                      it should have corresponding statutory authority, not currently available, to
                      ensure the integrity of the process, including by verifying the accuracy of
                      information provided on labor condition applications.

     Human Capital Management

                      The management of human capital presents a significant challenge to
                      the Department due to anticipated workforce and skills shortages. As
                      many Federal workers become eligible for retirement, the Department’s
                      ability to recruit and retain highly qualified people will be essential to the
                      successful accomplishment of its mission. The Department has
                      instituted a number of policies to maximize its recruitment and retention
                      of talented people. There are a number of specific legislative, regulatory,
                      and policy changes that would be helpful to Federal agencies like DOL
                      in more effectively competing with private industry for highly-skilled
                      personnel and in retaining qualified employees.

     Effectiveness of Mine Safety
     and Health Programs

                      In January 2001, the OIG listed enhancing the effectiveness of programs
                      administered by the Mine Safety and Health Administration (MSHA) as
                      a management challenge to the Department. Prior evaluations by the
                      OIG had identified a number of issues needing the Department’s
                      attention to ensure that programs that protect miners from injury or death
                      operate efficiently and effectively. MSHA has taken significant steps
                      toward addressing the recommendations that resulted from those
                      evaluations and will be challenged in the coming year to fully implement
                      outstanding recommendations, some of which require rulemaking.


8                                                                 Semiannual Report to the Congress
                                                                   April 1, 2002–September 30, 2002
      Enhancing
     Opportunities
     for America’s
       Workforce




Employment
and Training
The Department of Labor provides assistance to those new to the labor force and
those wishing to improve their potential to achieve success in today’s job market.
The Department provides opportunities for individuals to obtain the skills necessary
to succeed in the global economy, close the employment gap for out-of-school youth,
and increase long-term jobs for people as they move from welfare to work.


The OIG works to optimize the use of funds appropriated for training and employment
programs by enhancing program performance and accountability. This includes
providing oversight to ensure the overall efficiency and effectiveness of DOL’s
progress in moving welfare recipients away from public assistance and into training,
jobs, and self-sufficiency.
                                                                          Employment
                 Foreign Labor Certification Programs                     and Training


                            The Department of Labor’s foreign labor certification programs are
                            designed to provide employers access to foreign workers in specialty
                            occupations or in areas in which there is a shortage of American workers.
                            The permanent, H-2A, and H-2B programs are supposed to ensure that
                            the admission of aliens to work in the United States on a permanent or
                            temporary basis does not adversely affect the job opportunities, wages,
                            and working conditions of American workers or legal resident aliens.
                            The H-1B Visa Specialty Workers program is intended to allow U.S.
                            businesses to compete in a global market in order to respond to rapid
                            advances in technology. It requires employers who intend to employ
                            foreign specialty-occupation workers temporarily to file labor condition
                            applications with the Department stating that the required wage rates
                            will be paid and that other requirements will be followed. Proper worker
                            documentation must accompany these applications before a visa is
                            issued. Under current law, the Department is required to certify H-1B
                            applications unless it determines that the applications are “incomplete
                            or obviously inaccurate.” OIG audits and investigations have shown that
                            the individuals allowed into the United States under this program often
                            lack the specialized skills necessary for meeting the requirements for
                            H-1B visas.


                            In addition to the application certification process, the Department
                            administers grants that are financed through a $1,000 user fee imposed
                            on employers for every H-1B visa application filed. These grants,
                            established by the American Competitiveness and Workforce
                            Improvement Act of 1998 (ACWIA), are intended to help both employed
                            and unemployed U.S. workers acquire technical skills for occupations
                            that are in demand and are currently being filled by foreign workers on
                            H-1B visas. ACWIA established these grants to train and to place workers
                            directly into highly skilled H-1B occupations and to create programs that
                            would continue after the grants expired.


    H-1B Technical Skills Training
    Grants Did Not Achieve Intended
    Employment Outcomes

                            DOL has conducted three rounds of grant competition and awarded
                            43 technical skills training grants totaling approximately $96 million
                            through 2000. We conducted performance audits of six of these grants,



Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                  11
          Employment
          and Training                             Foreign Labor Certification Programs


                              which totaled $15.4 million and were intended to serve nearly 3,000
                              participants. The overall audit objective was to evaluate whether
                              grantees were meeting the intent of the H-1B Technical Skills Training
                              Program and the requirements of their grants. The audits were designed
                              to evaluate project implementation, outcome achievement, and fiscal
                              accountability.

                              Overall, we found that training was implemented and target populations
                              were served. However, none of the participants in two of the grants
                              obtained employment or upgrades in occupations for which they were
                              trained. Two other grantees did not track placements, and therefore
                              employment outcomes were unknown. Further, just three of the six
                              grantees demonstrated that their projects could continue to operate after
                              the current grants ended, a requirement of the grants. In addition, we
                              questioned over $1.6 million in costs, or 29% of reported Federal outlays
                              to date. The following chart summarizes our findings for the six grantees
                              we audited.

                                   Implementation                         Outcomes
                     Technical                                                                  Questioned
     Grantee*                         Target                                     Measured/
                       Skills                       Sustainable    Achieved                       Costs
                                    Population                                   Reported
                     Training
     SELACO          In progress         Yes            Yes         Unknown          No             $         0
     SFPIC               Yes             Yes            Yes           No             Yes                915,985
     REB                 Yes             Yes            No            No             No                       0
     Work Alliance       Yes             Yes            No            No             Yes                231,675
     WorkPlace            No             No             No          Unknown          No                 140,000
     TUF                 Yes             Yes            Yes         Unknown          No                 359,462
     TOTAL                                                                                        $1,647,122
                                   *SELACO          Southeast Los Angeles County Workforce Investment Board
                                   SFPIC            San Francisco Private Industry Council
                                                    Metro North Regional Employment Board (Malden,
                                   REB
                                                    Massachusetts)
                                   Work Alliance    (New York, New York)
                                   WorkPlace        (Bridgeport, Connecticut)
                                                    The League/Service Employee International Union 1199
                                   TUF
                                                    Training and Upgrading Fund (New York, New York)


                              Project Implementation

                              In general, training was implemented and target populations were
                              served in accordance with the grant conditions. However, while grantees
                              implemented training utilizing local educational institutions, innovative
                              training methods (the unique aspect of the grants) were not fully
                              developed, and in one case were not established at all. We also found
                              that some targeted groups, such as unemployed and underemployed
                              individuals, were being excluded and therefore not being served as
                              specified. Finally, we found that the program’s sustainability was an
                              issue for half of the grantees audited. This was mainly due to problems


                                                                               Semiannual Report to the Congress
12                                                                              April 1, 2002–September 30, 2002
                                                                                Employment
                 Foreign Labor Certification Programs                           and Training

                            with the innovative aspects of the projects, such as partnerships with
                            industry, which severely diminished over time.

                            Outcome Achievement

                            We found that training either failed to achieve employment outcomes or
                            had unknown outcomes. The following chart shows the participant
                            placement or upgrade rates for the six audited grantees.


                                                        Months         Placement or Upgrade
                                          Grantee
                                                        Elapsed   Planned     Actual      Rate
                                        SELACO            13         500     Unknown Unknown
                                        SFPIC             20         205        94       46%
                                        REB               13         345       0*        0%*
                                        Work Alliance     10         220        2         1%
                                        WorkPlace         15         448     Unknown Unknown
                                        TUF               10         550       Not Yet Known
                                          *REB had no upgrades and did not measure placements.

                            We questioned over $1.6 million because the costs were not allocable,
                            allowable, or reasonable. Future costs may be questioned if matching
                            requirements (grantees have to match 25% of the Federal outlays using
                            non-Federal funds) are not satisfied. Most of the questioned costs could
                            have been avoided had detailed subcontractor program and budget
                            information been provided and evaluated by both ETA and the grantees
                            prior to the grant award. Some examples of questioned costs include:
                                    •     $140,000 spent on “soft skill” training not associated with a
                                          technical skill curriculum;
                                    •     $154,025 for curriculum development that was unnecessary and
                                          unallowable since a comparable curriculum already existed; and
                                    •     $915,985 for computer labs using an inappropriate cost basis
                                          that included an element of profit and duplicative costs, rather
                                          than actual lab costs.

                            We recommended that ETA recover the $1.6 million in questioned costs
                            and take steps to ensure that grantees operate their projects in
                            accordance with the intent and requirements of their grants. The
                            grantees generally responded that they were operating as intended
                            under their grant agreements and that progress has been made in
                            accomplishing grant goals since our audits. (OA Report No. 02-02-207-
                            03-390, issued March 26, 2002; OA Report No. 02-02-211-03-390,
                            issued September 30, 2002; OA Report No. 02-02-212-03-390, issued
                            September 26, 2002; OA Report No. 02-02-213-03-390, issued
                            September 30, 2002; OA Report No. 02-02-214-03-390, issued
                            September 30, 2002; OA Report No. 02-02-215-03-390, issued
                            September 30, 2002)


Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                       13
        Employment
        and Training                  Foreign Labor Certification Programs


                       The OIG continues to identify fraud in the foreign labor certification
                       programs. These cases involve fraudulent applications that are filed with
                       DOL on behalf of fictitious companies and corporations, individuals who
                       file petitions using the names of legitimate companies and corporations
                       without their knowledge or permission, and immigration attorneys and
                       labor brokers who collect fees and file fraudulent applications on behalf
                       of aliens. ETA has provided significant assistance in these types of cases.


     Former State Department Employee
     Pleads Guilty in Virginia

                       On August 20, 2002, Ronald Bogardus, a former State Department
                       engineer, pled guilty to one count each of conspiracy, labor certification
                       fraud, money laundering, immigration fraud, and extortion. Soon after
                       the close of the reporting period, on October 18, 2002, Bogardus was
                       sentenced to over eight years in prison and, per his plea agreement, will
                       forfeit over $4 million in cash, real property, and other property. The
                       investigation revealed that Bogardus was involved in preparing
                       fraudulent applications for alien employment certification that an
                       attorney (who is a co-defendant in this case) later presented to DOL.
                       Bogardus went to restaurants and obtained managers’ names and
                       signatures, which he later used on the applications without the
                       managers’ knowledge. The extortion count of his guilty plea concerned
                       written threats that Bogardus made to an immigrant in an attempt to
                       persuade the immigrant to withdraw a lawsuit against the attorney and
                       others. This investigation is being conducted with the Department of
                       State, the IRS, the Immigration and Naturalization Service (INS), and the
                       Fairfax County Police Department. U.S. v. Bogardus (E.D. Virginia)

     Virginia Immigration
     Attorney Sentenced

                       On August 2, 2002, immigration attorney S. Anita Ryan was sentenced
                       to six years’ imprisonment and four years’ supervised release and was
                       ordered to pay nearly $400,000 in restitution to her clients. Over the past
                       eight years, Ryan defrauded clients who were seeking work visas and
                       permanent resident status of more than $350,000. Ryan sold approved
                       labor certifications and work visas without notifying the original
                       applicants. She continued to bill and collect fees from the original
                       applicants even though their approved documents had been sold or their
                       cases terminated without their knowledge. U.S. v. Ryan (E.D. Virginia)




                                                                  Semiannual Report to the Congress
14                                                                 April 1, 2002–September 30, 2002
                                                                           Employment
                 Foreign Labor Certification Programs                      and Training

    Virginia Grocery Store Owner
    Sentenced for Visa Fraud

                            On July 12, 2002, Choudhry Tariq Bashir, the owner of Star Grocery and
                            Halal Meat, was sentenced to 13 months’ incarceration and 2 years’
                            supervised release after pleading guilty to visa fraud. Since 1999, Bashir
                            filed 36 labor certification applications for Halal meat cutters. The
                            investigation revealed that the majority of these applications were
                            fraudulent and that undocumented workers had paid Bashir as much as
                            $14,000 to file on their behalf. In a related case, on May 21, 2002, Abdul
                            Hameed, an associate of Bashir, pled guilty to conspiracy and tampering
                            with a witness. The OIG was assisted in this case by the U.S. Postal
                            Inspection Service, the Fairfax County Police Department, and the
                            Herndon Police Department. U.S. v. Bashir, U.S. v. Hameed (E.D.
                            Virginia)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                   15
       Employment
       and Training                  Welfare-to-Work Program


                      The purpose of the Welfare-to-Work (WtW) program, which is
                      administered by the Employment and Training Administration (ETA), is
                      to prepare hard-to-employ long-term welfare recipients and other eligible
                      individuals for, and place them into, lasting unsubsidized employment.
                      WtW activities should be grounded in the “work-first” philosophy of the
                      Temporary Assistance for Needy Families program established under
                      the Personal Responsibility and Work Opportunity Reconciliation Act of
                      1996, the legislative centerpiece of welfare reform. In FYs 1998 and
                      1999, $3 billion was authorized for WtW grants and approximately
                      $700 million of this amount was awarded to grantees selected through a
                      competitive grant process carried out in three separate rounds, with the
                      remainder distributed by formula to the states. The competitive grants
                      were intended to be used to develop innovative approaches to serve the
                      targeted population.


     Columbus Urban League’s
     Competitive WtW Grant

                      The Columbus Urban League (CUL) received a $3.1 million competitive
                      WtW grant in January 1999 to place a minimum of 480 welfare recipients
                      into subsidized employment while engaging them in career development
                      activities to help increase their earning potential and economic stability.
                      The goal was to place 346 of the 480 individuals into unsubsidized
                      employment upon completion of the career development segment. As
                      permitted by law, the grant period was extended by two years; however,
                      the goal for unsubsidized employment was reduced from 346 to 228.

                      We audited CUL’s grant from its inception through June 30, 2001. We
                      found that CUL did not have a participant management information
                      system in place and therefore was unable to accurately track participant
                      enrollment or properly allocate expenditures. These inaccuracies
                      caused CUL to overstate the number of participants being served. In
                      addition, we questioned nearly $140,000 because staff salaries and
                      fringe benefits totaling $91,516 were based on budget estimates rather
                      than actual time worked, and technology items totaling $48,000 were
                      purchased without the required preapproval of ETA. CUL concurred with
                      our findings and recommendations and has begun taking actions to
                      correct the problems identified in our report. (OA Report No. 05-02-003-
                      03-386, issued August 19, 2002)




                                                                 Semiannual Report to the Congress
16                                                                April 1, 2002–September 30, 2002
                                                                          Employment
                               Welfare-to-Work Program                    and Training

    ETA Terminates $4.7 Million WtW
    Grant with Madison County, Alabama

                            Following the OIG’s issuance of a March 26, 2002, audit report, ETA
                            terminated a $4.7 million WtW competitive grant that had been awarded
                            to Madison County, Alabama. As a result of the grant’s termination,
                            approximately $3 million in unspent funds will be returned to the
                            Department. The purpose of the $4.7 million grant was to place 640 non-
                            custodial parents in unsubsidized employment over a 30-month period.
                            The OIG recommended that the grant not be extended because of
                            concerns about the program’s effectiveness.

    Connecticut Defendants Sentenced to
    Repay over $1 Million

                            Sandra Naclerio and Milton Greengas were sentenced for defrauding
                            the Community Action Agency of New Haven (CAANH), a nonprofit
                            corporation that provides services to low-income families, of over
                            $1 million. Greengas and Naclerio each received seven years’
                            incarceration and five years’ probation and were ordered to make
                            restitution to CAANH in the amounts of $573,000 and $468,000,
                            respectively. Naclerio, the former finance director of CAANH, and
                            Greengas, a retired printer, pled guilty in February 2002 to larceny for
                            defrauding CAANH. The investigation revealed that between 1998 and
                            2001 CAANH improperly paid more than $1 million to printing companies
                            owned by Greengas, of which over $52,000 was derived from WtW grant
                            funds awarded to CAANH. The monies were paid to Greengas largely
                            through invoices approved by Naclerio. In turn, Greengas kicked back at
                            least $235,000 to Naclerio. This was a joint investigation with the
                            Department of Housing and Urban Development OIG and the
                            Connecticut State’s Attorney’s Office. U.S. v. Naclerio, U.S. v. Greengas
                            (D. Connecticut)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                  17
        Employment
        and Training                   Workforce Investment Act Programs


                       The Workforce Investment Act (WIA) became effective on July 1, 2000.
                       WIA established a new comprehensive workforce investment system
                       that is intended to be customer-focused in order to give individuals access
                       to information and tools they need to manage their careers, and to help
                       U.S. companies find skilled workers.


     ETA Has Little Assurance That State-
     Reported WIA Performance
     Outcomes Data Are Either Accurate
     or Verifiable

                       To assess the effectiveness of job training programs, WIA Title 1,
                       Subpart B, established a comprehensive performance accountability
                       system comprising indicators of performance for each major program
                       component (adult, dislocated worker, and youth). The WIA and
                       implementing regulations also require that states submit an annual
                       progress report on the performance measures required for each of the
                       three programs that can be validated and verified as accurate. ETA and
                       the states are responsible for monitoring this performance information.

                       We conducted a performance audit to determine what oversight and
                       monitoring procedures were in place to ensure that state-reported WIA
                       performance data were accurate. Our audit covered procedures at the
                       ETA’s national and regional offices, 4 states (Colorado, Louisiana,
                       Kentucky, and California), and 12 Workforce Investment Boards/One-
                       Stop Centers within those states.

                       We found that ETA has little assurance that the state-reported WIA
                       performance outcomes data are either accurate or verifiable. At the local
                       level, none of the 12 One-Stops had adequately documented procedures
                       for validation of participant performance data. At the state level, two of the
                       four states had not monitored performance data at the One-Stop case file
                       level, and none of the four states had formal data validation procedures to
                       ensure the accuracy of reported performance data. At the Federal level,
                       ETA limited its regional and national monitoring procedures over WIA
                       outcomes data to desk reviews and computer edit checks.

                       We concluded that ETA cannot ensure that the WIA performance
                       outcomes reported since the inception of the program are accurate. This
                       is due to: (1) the lack of monitoring in the first year of WIA performance
                       reporting; (2) the lack of a statistically valid data validation approach; and
                       (3) the lack of clear documentation requirements and definitions of key
                       program terms. ETA has initiated a data validation and verification
                       project to develop a comprehensive ETA performance data validation
                       and verification computer program that seeks to strike the proper
                       balance between data integrity and efficiency. One of the project


                                                                   Semiannual Report to the Congress
18                                                                  April 1, 2002–September 30, 2002
                                                                                Employment
                  Workforce Investment Act Programs                             and Training

                            objectives includes determining what will constitute sufficient proof that
                            the data are correct. However, until the proposed program is
                            implemented, ETA will continue to operate without any substantive
                            assurance that the performance results that it reports for WIA are reliable.

                            We recommended that ETA:
                                    •   continue its current efforts to establish a standardized statistical
                                        method for WIA performance data validation and require the
                                        states to either use this method or have an equivalent
                                        documented method in place to ensure data integrity;
                                    •   provide the states with consistent definitions and documentation
                                        guidelines to ensure that all states are reporting consistent data;
                                        and
                                    •   have regional ETA representatives require the states to include
                                        data validation in their monitoring of policies/programs, establish
                                        minimum documentation standards to support the activities and
                                        outcomes reported, and independently calculate the reported
                                        performance measures as part of their performance monitoring.

                            ETA agreed with our conclusions and responded that it is currently
                            developing an effective strategy for validating and verifying performance
                            outcomes data. However, ETA did not indicate whether data validation
                            would be mandatory for all states. Unless it is made mandatory, ETA still
                            will have no assurance that national performance data are accurate
                            because states will not be required to validate data. (OA Report No. 06-
                            02-006-03-390, issued September 30, 2002)

    Review of State WIA Funding

                            ETA has reported that states had large amounts of unspent WIA funds
                            during FY 2002. States have contended that ETA’s financial portrayal
                            was misleading and failed to consider valid financial obligations, such as
                            orders placed, and contracts issued that the states or their local
                            workforce boards would eventually need grant funds to pay.

                            In order to provide useful information to the Administration and the
                            Congress for resolving and reconciling the conflicting viewpoints as
                            budgets are debated and decided, the OIG is compiling financial
                            information reported by all states on WIA programs and is currently
                            reviewing how this information was prepared in a sample of nine states
                            and Puerto Rico. Our review includes the period from the inception of
                            WIA through December 31, 2001. We have completed a review of the
                            State of Ohio, and work continues in Pennsylvania, South Carolina,
                            Tennessee, North Carolina, Maryland, Michigan, California, Louisiana,
                            and Puerto Rico.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                         19
        Employment
        and Training                  Workforce Investment Act Programs

                       The State of Ohio received WIA awards totaling $261 million as of
                       December 31, 2001. The State reported that the full $261 million of its
                       grant was obligated. However, we found that only $93 million of the funds
                       had been spent. We found that obligations were overstated because
                       Ohio had reported the entire amount of the grant award as obligated.
                       According to ETA, obligations should have been limited to those items
                       for which the local area incurred a legal liability to spend funds.

                       In addition, our review found problems with some of Ohio’s financial
                       reporting. Some inconsistencies were the result of inadequacies in the
                       reporting procedures of both the State and its local workforce boards
                       relating to financial obligations. However, it was not evident that ETA had
                       adequately communicated reporting requirements to the states or
                       provided them with consistent guidance on what constitutes obligations.
                       Consequently, some inconsistencies may have resulted from confusion
                       over what to report.

                       We also found that, in Ohio, WIA program expenditures had been
                       reported only when cash was disbursed (cash basis accounting) to pay
                       the obligation. ETA requires that expenditures be reported when a
                       liability has been created through delivery of goods or services (accrual
                       basis accounting), irrespective of when cash payment is made. Based
                       on past spending rates and irrespective of additional WIA annual
                       allocations that may be received, Ohio had over two years of WIA
                       funding available on December 31, 2001. Finally, we found that Ohio
                       was drawing down WIA cash faster than was needed, creating large
                       cash balances. The Cash Management Improvement Act limits cash
                       advances to the minimum amounts required for immediate cash needs.
                       However, as of December 31, 2001, Ohio had drawn down six months
                       of cash in excess of costs incurred.

                       The State of Ohio generally agreed with the information presented in this
                       report. When the OIG has finalized the reports for the remaining states
                       and Puerto Rico, we will issue formal recommendations to ETA. (OA
                       Report No. 04-02-004-03-390, issued September 20, 2002)

     Identification of Potential Conflicts
     of Interest Leads to Better Use
     of nearly $93 Million

                       In April 2002, the OIG completed its investigation of potential conflict of
                       interest violations by Maximus, Inc., which was awarded several grants
                       by the New York City Human Resources Administration (HRA). These
                       grants, which totaled over $109 million, included monies from the
                       Federal WtW, Job Training Partnership Act, and WIA programs. Among
                       the potential conflicts of interest was Maximus’s giving things of value to
                       a high-level official at HRA. After the results of the investigation were
                       released to the City of New York, the contracts were reduced to
                       approximately $16 million, or nearly $93 million less than originally
                       awarded.
                                                                  Semiannual Report to the Congress
20                                                                 April 1, 2002–September 30, 2002
       Promoting the
         Economic
         Security of
        Workers and
          Families




Worker Benefits
     Programs
The Department of Labor is responsible for protecting workers’ hours, wages, and
other conditions when they are on the job, providing unemployment and compensation
benefits when workers are unable to work, and expanding, enhancing, and protecting
workers’ pensions, health care, and other benefits. The Department carries out
programs to ensure compliance with minimum-wage and overtime requirements; to
enable working Americans to be economically secure when they retire; to provide
more pensions for women and employees of small businesses; to provide better access
to health care; and to facilitate community readjustment in those areas suffering from
economic change by shortening periods of unemployment and increasing full-time
jobs and wage replacement.



The OIG assists the Department in effectively administering and safeguarding Federal
employee benefits programs (e.g., unemployment insurance and disability
compensation benefits programs) and in overseeing the nation’s pension system.
Moreover, through our investigative efforts, we protect the integrity of programs by
identifying and causing the termination of fraudulent claims and billings by ineligible
recipients and medical providers.
                                                                         Worker Benefits
                   Unemployment Insurance Program                          Programs


                            Enacted over 60 years ago as a Federal-state partnership, the
                            Unemployment Insurance (UI) program is the Department’s largest
                            income maintenance program. This multibillion-dollar program assists
                            individuals who have lost their jobs through no fault of their own. While
                            the framework of the program is determined by Federal law, the benefits
                            for individuals are dependent on state law and are administered by State
                            Workforce Agencies (SWAs) in 53 jurisdictions covering the 50 states,
                            the District of Columbia, Puerto Rico, and the U.S. Virgin Islands, under
                            the oversight of ETA. The OIG continues to expand its investigative efforts
                            to detect and investigate fictitious or fraudulent employer schemes used
                            to defraud the UI program. We are also focusing on other ways, such as
                            identity theft, by which the program is being defrauded. In recent years,
                            the program has suffered losses in the millions of dollars as a result of
                            these various types of schemes. Highlighted below are some of our
                            accomplishments in this area.


    Defendants Sentenced in Missouri
    for Counterfeiting Scheme

                            Twelve of 23 individuals indicted in connection with a UI check
                            counterfeiting scheme have pled guilty and received sentences as of this
                            semiannual reporting period. The group counterfeited Missouri State
                            Unemployment Insurance checks as well as checks from the State of
                            Illinois and other entities. To date, over 200 counterfeit checks totaling
                            over $200,000 have been identified. Of the 200 checks, 77 were UI
                            checks. This investigation was conducted with assistance from the FBI,
                            the Social Security Administration (SSA) OIG, the IRS Criminal
                            Investigations Division (CID), the ATF, and state and local entities. U.S.
                            v. Rogers, et al. (E.D. Missouri)

    Defendants Sentenced in
    Fictitious Employer Scam

                            On September 4, 2002, Zackary Epps was sentenced to 12 months’
                            imprisonment and 2 years’ supervised release and was ordered to pay
                            back more than $320,000 that he fraudulently obtained from the New
                            Jersey Unemployment Insurance program. Epps pled guilty to mail fraud
                            in March 2002 for defrauding the UI program over a seven-year period.
                            Three of Epps’ co-conspirators either pled guilty or were found guilty of
                            mail fraud. One of the co-conspirators, Alvin Patterson, was sentenced in
                            July 2002 to 14 months’ incarceration for his part in the scheme.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                    23
      Worker Benefits
        Programs                      Unemployment Insurance Program


                      The investigation found that Epps registered four fictitious companies,
                      which were used by Epps and his co-conspirators to file false UI
                      applications claiming that they had been laid off from the companies and
                      were entitled to benefits. Using a false name to disguise his involvement,
                      Epps sent false wage and employment information to local unemployment
                      offices to verify that those involved had been employed. In return, the co-
                      conspirators agreed that they would split their UI checks with Epps. This
                      investigation was conducted jointly with the U.S. Postal Inspection
                      Service. U.S. v. Epps (D. New Jersey)

     Defendants in California
     Sentenced for Identity Fraud

                      Eddie Johnson was sentenced on June 24, 2002, after pleading guilty to
                      two counts of mail fraud in a scheme to defraud the State of California
                      Unemployment Insurance program. Johnson was sentenced to
                      18 months’ incarceration and 3 years’ supervised release and was
                      ordered to pay nearly $135,000 in restitution. Johnson’s girlfriend, Leella
                      Robertson, who also pled guilty for her role in the scheme, was
                      sentenced on May 20, 2002, to three years’ probation and was ordered
                      to pay over $17,000 in restitution.

                      The investigation revealed that Johnson had orchestrated an identity
                      theft scheme designed to obtain UI benefits and had filed over
                      30 fraudulent UI claims totaling more than $130,000. Victims of the
                      scheme included Los Angeles City and County employees whose
                      identities were stolen from a credit union. Johnson filed fraudulent UI
                      claims using stolen identities and had benefit checks sent to his
                      residence. This investigation was conducted jointly with the California
                      Employment Development Department and the U.S. Postal Inspection
                      Service. U.S. v. Johnson, U.S. v. Robertson (C.D. California)




                                                                 Semiannual Report to the Congress
24                                                                April 1, 2002–September 30, 2002
                                                                         Worker Benefits
         Office of Workers' Compensation Programs                          Programs

                            The Employment Standards Administration’s (ESA’s) Office of Workers’
                            Compensation Programs (OWCP) administers four major disability
                            compensation programs: the Federal Employees’ Compensation Act
                            (FECA) program, the Black Lung Benefits program, the Longshore and
                            Harbor Workers’ Compensation program, and the Energy Employees’
                            Occupational Illness Compensation program. These programs provide
                            wage replacement benefits, medical treatment, vocational rehabilitation,
                            and other benefits to certain workers who experience work-related injury
                            or occupational disease and their dependents.

Medical Provider Fraud
                            Fraud by medical providers is generally perpetrated by submitting claims
                            for services or goods not provided or delivered, billing for treatment not
                            related to the approved medical condition or disability, double-billing,
                            upcoding (billing under a more expensive treatment service code than
                            that for the treatment actually provided), or unbundling (breaking one
                            service into several services with separate charge codes) to fraudulently
                            obtain reimbursement. The following cases are illustrative of our work in
                            this area.

    Virginia Physicians Sentenced for
    Scam of over $1.5 Million

                            On September 20, 2002, physicians Vinodchandra “Vinod” Modi and
                            Kailas Modi were sentenced for their roles in defrauding the Black Lung
                            program of over $1.5 million. Vinod Modi was sentenced to 37 months’
                            imprisonment and 3 years’ probation and was ordered to pay fines of
                            $75,000 and to surrender his medical license for life. Kailas Modi was
                            sentenced to five years’ probation and six months’ home confinement
                            and was ordered to pay fines of $20,000 and to surrender her medical
                            license for five years. The Modis were ordered to jointly pay $2 million in
                            restitution, of which $1.5 million will go to the Department of Labor. They
                            were also ordered to forfeit an additional $1.5 million.

                            The Modis were indicted in July 2001 and pled guilty in April 2002 to
                            unlawful distribution of controlled substances. Vinod Modi also pled
                            guilty to conspiracy to commit mail fraud and money laundering. The
                            investigation found that the Modis billed and received payment from
                            the Black Lung program for excessive office visits and unnecessary
                            medical treatments and supplies. The investigation was conducted by
                            a task force comprised of the IRS CID, the DOL OIG, the Health and
                            Human Services OIG, the Virginia State Police, the Virginia
                            Department of Health Professionals, the Virginia Attorney General’s
                            Medicaid Fraud Control Unit, the FBI, and the DEA’s Drug Diversion
                            Unit. U.S. v. Modi (W.D. Virginia)

Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                    25
      Worker Benefits
        Programs                     Office of Workers' Compensation Programs


     Defendant Sentenced in
     District of Columbia

                     On June 18, 2002, Theresa A. Adams, the owner of Columbiatech Nursing
                     Service, Inc., was sentenced to five months’ incarceration, five months’
                     home detention, and three years’ supervised release after pleading guilty
                     in December 2001 to mail fraud charges. Adams was also ordered to pay
                     $48,000 in restitution. From February 1998 through April 2000, Adams
                     submitted false invoices to the Office of Workers’ Compensation
                     Programs, causing DOL to pay Columbiatech over $78,000 in fees to
                     which it was not entitled. Adams billed OWCP for physical therapy
                     services that she did not actually provide to an OWCP claimant. The
                     investigation was conducted jointly with the FBI and the Washington, D.C.,
                     United States Attorney’s Office. U.S. v. Adams (D. Dist. of Columbia)
Claimant Fraud
                     Claimant fraud involves the concealment or false reporting of employment
                     and income by an individual who continues to receive program benefits
                     or services. In the FECA program alone, over $2.2 billion in medical and
                     death benefits and wage loss compensation was paid from July 1, 2001,
                     to June 30, 2002, with over half of these benefits paid to injured employees
                     of the U.S. Postal Service, the Department of the Navy, and the
                     Department of the Army. The OIG continues to work joint cases with
                     other Federal investigative agencies and advise them on how to conduct
                     FECA investigations more efficiently and effectively. This has been
                     especially true, most recently, with Department of Defense criminal
                     investigative units from the U.S. Army and Navy. It is important to note
                     that the removal of a single fraudulent claimant from Federal benefit
                     rolls creates, on average, a $300,000 to $500,000 savings for the
                     government. The following case is illustrative of our work in this area.

     Defendant Ordered to Pay Nearly
     $90,000 in Restitution

                     On April 3, 2002, Eliud Morfin was sentenced to serve 30 days in jail and
                     60 days’ home confinement for workers’ compensation fraud. He was also
                     sentenced to 3 years’ probation and 500 hours of community service and
                     was ordered to pay over $90,000 in fines and restitution to the Office of
                     Workers’ Compensation Programs. The investigation disclosed that
                     Morfin, a former civilian employee at Hill Air Force Base (HAFB) in Utah
                     who received workers’ compensation, was also self-employed. Morfin
                     earned over $25,000 in known income over several years, which he failed
                     to report to OWCP. This joint investigation was conducted with the HAFB
                     Office of Special Investigations. State of Utah v. Morfin


                                                                 Semiannual Report to the Congress
26                                                                April 1, 2002–September 30, 2002
                                                                          Worker Benefits
                        Domestic Child Labor Program                        Programs


                            ESA’s Wage and Hour Division (WHD) is responsible for protecting
                            130 million workers by ensuring compliance with labor standards in more
                            than 7 million workplaces through its enforcement program, as well as
                            promoting voluntary compliance through education. Its domestic child
                            labor program is divided into two industrial areas, nonagricultural and
                            agricultural.


    Evaluation of the Domestic
    Child Labor Program

                            The OIG conducted an evaluation of WHD’s Domestic Child Labor
                            Program. Our evaluation found that the Nonagricultural Child Labor
                            Hazardous Occupation Orders (NACLHO) used by WHD to determine the
                            most significant child labor hazards need to be updated. We believe that
                            with the advances made in technology and in industry in the last five years,
                            WHD has been remiss in not reviewing the NACHLO to ensure that they
                            are up-to-date and reflect current hazardous industry occupations. WHD
                            asked the National Institute for Occupational Safety and Health to
                            recommend changes to the orders. We believe that an in-depth review by
                            WHD is needed to ensure that appropriate industries are covered by the
                            orders and that youth work activities are consistently protected.

                            Additionally, our review determined that the management and
                            investigative tools used by WHD to identify and substantiate child labor
                            law compliance have not been reviewed and updated. We believe that
                            WHD needs to conduct a best-practices evaluation of each regional and
                            district office’s child labor initiatives to assess their effectiveness;
                            evaluate all regional and district offices’ inventories to identify all
                            requisite equipment necessary for WHD to carry out its mission and
                            program goals; and pursue developing formal relationships with public
                            and private data collection agencies to gain access to employer data for
                            WHD mission-related actions.

                            Our review also determined that WHD has not been consistent in the
                            development and execution of outreach programs and beneficial
                            relationships with Federal, state, and local employment issuance and
                            regulatory agencies. We found that WHD has not consistently worked
                            with state and local agencies that are responsible for issuing youth
                            employment certifications. We recommended that WHD establish and
                            maintain formal relationships with permit-issuing officials/agencies to
                            ensure that youth and employers have clear information on both Federal
                            and state child labor laws and requirements. Further, formal and informal
                            relationships with Federal, state, and local regulatory agencies that
                            augment and enhance WHD mission-related goals should be
                            developed. The agency generally agreed in principle with our findings
                            and has begun steps to implement our recommendations. (OCIE Report
                            No. 2E-04-420-0001, issued September 26, 2002)

Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                     27
               Fostering
                Quality
              Workplaces
             That Are Safe,
              Healthy, and
                  Fair




Worker Safety, Health,
and Workplace Rights
The responsibilities of the Department under this goal are to foster safe and healthy
workplaces; interface with international bodies addressing core labor standards and
international child labor issues; increase the representation, advancement, and
promotion of women, minorities, veterans, and the disabled in jobs; and promote
compliance with the Family and Medical Leave Act.



The OIG assists the Department in promoting the safety, health, and workplace
rights of workers by assessing the effectiveness of programs designed to protect
workers and, within our jurisdiction, investigating violations of such laws.
                                                                     Worker Safety, Health,
     Occupational Safety and Health Administration                   and Workplace Rights


                            The mission of the Occupational Safety and Health Administration
                            (OSHA) is to ensure safe and healthful working conditions for working
                            men and women by authorizing enforcement of the standards developed
                            under the Occupational Safety and Health Act; assisting and encouraging
                            the states in their efforts to ensure safe and healthful working conditions;
                            and providing for research, information, education, and training in the
                            field of occupational safety and health. OSHA protects more than
                            100 million workers and is responsible for the safety and health of workers
                            in nearly every workplace in the United States.


    OSHA Strategic Partnerships Have
    Limited National Impact

                            In the 1990s, OSHA added new alternatives to its traditional
                            enforcement approach, such as expanded compliance assistance and
                            opportunities for partnerships to address workplace safety issues. The
                            OSHA Strategic Partnerships program was part of this. Although
                            partnerships have been encouraged and had grown to a total of 159 in
                            February 2002, they continue to represent only a small portion of
                            OSHA’s total cooperative assistance program.

                            We conducted a performance audit to determine how effective OSHA
                            was in establishing these partnerships through its outreach efforts and
                            whether partnerships were making an impact in improving safety and
                            health conditions in the workplace. We identified examples of
                            partnership successes, but we found that despite OSHA’s outreach
                            efforts, the program is having a limited national impact because of the
                            relatively few partnerships that have been established and the small
                            number of employers that are participating. We also found that OSHA
                            had been inconsistent in the application of policies and procedures, data
                            collection, and enforcement of the program requirements. Furthermore,
                            OSHA had not obtained corroborating information that would help
                            ensure the integrity of reported lost work day injury (LWDI) data, which
                            is used as a measure of workplace safety and health.

                            We recommended that, in order to realize more fully the potential
                            benefits of the program, OSHA refocus existing outreach efforts and
                            develop specific strategies to enlist more employers so that these
                            partnerships can become a more prominent part of OSHA’s cooperative
                            program. We also recommended that OSHA ensure that partnership
                            policies and procedures are effectively communicated to all area and
                            field offices and consistently applied in negotiating partnerships and
                            enforcing the program evaluation and verification inspection
                            requirements. Furthermore, we recommended that OSHA share the
                            encouraging preliminary results of the partnership program with



Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                     31
 Worker Safety, Health,
 and Workplace Rights               Occupational Safety and Health Administration


                     potential partnership employers and explore procedures for obtaining
                     information to corroborate LWDI information supplied by all partnerships
                     as part of the program evaluation reports. Finally, we recommended that
                     OSHA correct and update the partnership log information and transfer
                     information to a database system.

                     In response to our draft report, OSHA noted that the Strategic
                     Partnerships program is but one of many program alternatives for
                     providing compliance assistance and outreach and is a relatively new
                     program that has undergone material changes and refinements during the
                     period in which the OIG conducted the audit. OSHA expects that these
                     changes, many of which address concerns identified by the OIG, will
                     enable it to improve the program. Moreover, with respect to corroborating
                     LWDI information, OSHA stated, “Though OSHA does not agree with the
                     specific OIG recommendation, the agency will continue to explore
                     alternative means of securing information for use in program evaluation
                     reports.” (OA Report No. 05-02-007-10-001, issued September 30, 2002)

     OSHA Violations Yield Sentencing

                     Within the OIG’s jurisdiction, we assist OSHA in investigating labor
                     violations involving the health and safety of workers. The OIG has
                     provided this assistance in several cases in which an employer violated
                     OSHA standards resulting in the death of employees. On June 13, 2002,
                     Moshe Junger was sentenced after pleading guilty to willfully violating
                     OSHA standards in connection with the April 2001 death of an immigrant
                     worker who was crushed by a steel beam. Junger, the owner of
                     Brooklyn, New York–based Mordechai Rubbish, Inc. (MRI), was
                     sentenced to four months in prison and one year’s supervised release
                     and was ordered to pay a $100,000 fine. In addition, MRI foreman
                     Ramon Acosta was sentenced on April 15, 2002, to 24 months’
                     probation for making false statements to an OSHA compliance officer
                     during an OSHA investigation into the death. U.S. v. Junger, U.S. v.
                     Acosta (E.D. New York)




                                                               Semiannual Report to the Congress
32                                                              April 1, 2002–September 30, 2002
                                                                     Worker Safety, Health,
                                        Davis-Bacon Act              and Workplace Rights


                            The Davis-Bacon Act and related acts require the payment of prevailing
                            wage rates and fringe benefits on federally financed or assisted
                            construction. The OIG selectively focuses on investigating violations by
                            contractors engaged in Federal construction projects who submit falsified
                            certified payroll records.


    Construction Company and Its Owner
    Sentenced

                            Michael F. Persons and his company, KAJACS Contractors, Inc., were
                            sentenced on June 24, 2002, for their conviction on mail fraud charges.
                            Persons was sentenced to three years’ probation and KAJACS to five
                            years’ probation. In addition, Persons and KAJACS were ordered to pay
                            over $250,000 in fines, $670 to employees whose wages were withheld,
                            and over $13,000 in restitution to insurance companies. Moreover,
                            KAJACS has been suspended from any future Federal government
                            contracting work. In addition to the nearly $7 million in Federal contracts
                            named in an August 2001 indictment, the company had several other
                            ongoing or proposed public works contracts with various governmental
                            agencies totaling in excess of $21 million.

                            The investigation determined that, in March 1996, KAJACS incorrectly
                            classified laborers and supervisors to avoid paying higher wage rates.
                            The State of Missouri ordered the company to make restitution to the
                            affected employees and requested copies of the negotiated checks to
                            verify the company’s compliance. However, the investigation revealed
                            that Persons had the employees endorse the checks, which Persons
                            then deposited back into the company’s account. The OIG was assisted
                            in this investigation by the SSA OIG, the Small Business Administration
                            OIG, and the FBI. U.S. v. Persons (E.D. Missouri)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                    33
    Maintaining a
    Departmental
      Strategic
    Management
        Focus




Departmental
Management
The OIG assists DOL in maintaining an effective management process. This includes
conducting activities and providing appropriate technical assistance to DOL management
to ensure effectiveness and efficiency in the management of DOL, the integrity of financial
management systems, and the effective management of information technology.
                                                                            Departmental
                                    Information Technology                  Management

                            The Department currently operates 82 mission-critical applications and
                            general support systems, and in FY 2001 alone the Department’s
                            information technology (IT) budget exceeded a quarter of a billion dollars.
                            DOL relies on these critical information systems to monitor and analyze
                            the nation’s labor market and economic activities, manage workforce
                            services, and protect and compensate American workers. During the
                            second half of FY 2002, the OIG continued to assist the Department in
                            its efforts to enhance computer security controls. Recent audits revealed
                            specific vulnerabilities in computer security and protection of assets.


                            Overall, the Department has improved its information security program.
                            The Department has provided much-needed direction and
                            implementation of related processes, which are resulting in a more
                            coordinated and comprehensive approach to the implementation of the
                            Department’s security plan. In addition, while we continued to identify
                            information security weaknesses during FY 2002, the Department is
                            improving its management of its information security program, in
                            accordance with OMB Memorandum 02-09. The Department is
                            recognized for its leadership in tracking the performance level of each
                            security plan and for its ability to integrate security performance results
                            within its planning and investment process and its enterprise architecture.
                            These accomplishments are helping to ensure that security issues are
                            being addressed throughout each phase of a system’s life cycle.


                            In addition, departmental working groups are helping to ensure that input
                            is received and buy-ins are obtained from component programs prior to
                            the release and enforcement of new or changed security policies or
                            guidelines. These working groups also provide a forum for component
                            programs to share common concerns, experiences, and best practices
                            during implementation. Major focus areas include:

                                    •   certification and accreditation;
                                    •   contingency planning/disaster recovery planning;
                                    •   security awareness and training;
                                    •   planning and investment enhancements; and
                                    •   E-Gov initiatives.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                    37
       Departmental
       Management                       Information Technology


     DOL IT Security Audits

                         The OIG issued a summary report to the Office of Management and
                         Budget (OMB) on 16 computer security audits performed in FY 2002
                         encompassing application and general support systems in accordance
                         with the Government Information Security Reform Act (GISRA). These
                         included two systems security tests covering a subset of DOL’s 82
                         sensitive systems, such as mission-critical systems. In addition, the OIG
                         performed one independent verification and validation of the
                         Department’s Plan of Actions and Milestones process for the period
                         October 2001 through June 2002. The following table characterizes the
                         subsets OIG audited, evaluated, and/or reviewed in FYs 2001 and 2002,
                         where applicable.


                     Subset of System Audits, Evaluations, and Other Security Reviews
          System Categories                                     General
                                         Application
      by DOL Business Functions                                 Support               Other
                                          Systems
                                                                Systems
                                    09/10/01 09/16/02 09/10/01 09/16/02 09/10/01 09/16/02
      Payment and Benefits              1           2         -         -           -       -
      Economic/Statistical              1           -         -         -           -       -
      Financial                         -          12         -         -           -       -
      Enforcement                       4           -         -         -           -       -
      Operational                       4           -         -         -           -       -
      Security Tests and                -           -         6         2           -       -
      Evaluation
      Other Security Reviews            -           -         -         -           2       1
      Total Subset Examined            10          14         6         2           2       1


                         In the year since we issued our last report to OMB (September 10, 2001),
                         the Department has established an information security program that
                         complies with OMB direction and GISRA requirements and adopts
                         recognized guidelines. If this focus is maintained, it should lead to
                         assurances that DOL computer systems are reliable and adequately
                         safeguarded and should result in uninterrupted delivery of benefits and
                         services to the public.

                         While the efforts by the Department and its component programs are
                         notable, we continue to identify areas where improvements are needed.
                         This will be the case for some time as the management of the system
                         development life-cycle process continues to evolve and mature in the
                         Department, particularly within the component programs. For example,
                         the OIG’s vulnerability assessment of the Department’s core financial
                         system identified significant system security vulnerabilities, including
                         information that was inappropriately placed on the public Internet and
                         password policy and settings with inadequate controls.




                                                                   Semiannual Report to the Congress
38                                                                  April 1, 2002–September 30, 2002
                                                                          Departmental
                                    Information Technology                Management

                            Also, the OIG’s examination of the GISRA FY 2002 subset identified
                            repeat system security vulnerabilities and other weaknesses in the
                            following areas: (1) entity-wide security program planning and
                            management; (2) access controls; (3) application software development
                            and change control; (4) system software; and (5) service continuity.

                            Despite these vulnerabilities, we believe that the Department and its
                            component programs are making progress toward a fully integrated and
                            comprehensive security program. Departmental officials and program
                            component security officials are considering any potential security
                            vulnerabilities to be serious issues and are taking immediate steps to
                            ensure that the vulnerabilities are addressed and corrected. However,
                            the Department will face challenges within the next few years as new
                            technologies emerge, interrelated systems grow, and business
                            practices change. While meeting these challenges, the Department
                            must continue to improve in assessing risks; implementing preventive
                            and/or detective management, operational, and technical controls; and
                            identifying vulnerabilities through iterative testing and management of
                            the related mitigation plans and activities. (OA Report No. 23-02-015-50-
                            598, issued September 16, 2002)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                  39
       Departmental
       Management                    Single Audit Reports


                      In FY 2002, the Department of Labor had an annual appropriation of
                      nearly $55 billion. Because over 85% of DOL’s annual expenditures are
                      spent by non-Federal entities, the audit of Federal funds at these entities
                      is of paramount importance to DOL and the OIG. The majority of these
                      funds are covered by the Single Audit Act (SAA) Amendments of 1996.
                      The Act requires that non-Federal entities spending $300,000 or more
                      in Federal funds receive an independent audit in accordance with the
                      Act. The purpose of the SAA audits is to determine whether Federal
                      funds are spent in accordance with applicable laws and regulations and
                      to make this determination without subjecting an entity to audits from
                      multiple agencies; hence, the Act requires a “single” audit. The OIG
                      receives, from the Federal Audit Clearinghouse, SAA audit reports that
                      contain findings related to DOL programs. The OIG provides SAA audits
                      to DOL program agencies for resolution and participates with other
                      Federal agencies on quality control reviews conducted for single audits
                      of DOL recipients and subrecipients. We have initiated several studies
                      to determine the reliability and usefulness of SAA audits to the
                      Department, including use by the OIG in its annual audit of the
                      Department’s financial statements, as well as the most efficient and
                      effective method of making such a determination on a recurring basis.
                      Specifically, we are conducting studies to determine:

                         •   the information needed by DOL from SAA audits;
                         •   the sufficiency of independent audit work performed on DOL
                             funds via the SAA audits; and
                         •   an efficient and effective means of conducting SAA audit quality
                             control reviews.



     Quality of Single Audit Reports

                      During this reporting period, the OIG forwarded to DOL 17 single audit
                      reports for action and follow-up. These 17 reports questioned over
                      $27 million in DOL funds and contained 89 material findings. The most
                      common deficiencies found were that entities: (1) failed to adhere to the
                      Federal reporting requirements; (2) charged costs to the DOL programs
                      that did not meet the Federal cost principles; (3) lacked evidence of
                      participants’ eligibility; (4) did not adhere to Federal cash management
                      requirements; (5) did not properly monitor the subrecipient activities; and
                      (6) did not follow procurement regulations. We also received nine initial




                                                                 Semiannual Report to the Congress
40                                                                April 1, 2002–September 30, 2002
                                                                           Departmental
                                    Single Audit Reports                   Management

                            determinations and closed three single audit reports after receiving final
                            determinations from the program officials during this period.

                            In addition, as discussed in the last Semiannual Report, the OIG
                            previously conducted comprehensive quality control reviews (QCRs) of
                            the independent auditors’ work pertaining to six single audit reports
                            involving DOL funds. The objectives of our evaluation were to determine:
                            (1) whether the single audits performed met the requirements of OMB
                            Circular No. A-133 and the SAA Amendments of 1996; and (2) whether
                            sufficient audit work was performed in single audits pertaining to various
                            DOL programs selected for major program testing in accordance with
                            OMB Circular No. A-133. The results of our QCRs indicated that all six
                            of these audits had serious deficiencies that would make the resultant
                            reports unreliable. We found that auditing standards were not met in
                            various areas (e.g., there was inadequate sampling). As a result, we are
                            increasing our monitoring of those single audits for which the OIG has
                            been assigned direct oversight responsibility.

                            In addition to our increased QCR work, we are coordinating with OMB
                            and the National Single Audit Coordinators Committee to propose a
                            government-wide statistical sample of single audits for consideration by
                            the President’s Council on Integrity and Efficiency. This sample would be
                            projected to all single audits and would provide valuable information to
                            assess the effectiveness of the single audit process overall.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                   41
    Ensuring That a
   Union or Benefit
   Plan Is Operated
   for the Benefit of
     Its Members




       Labor
Racketeering
The Office of Inspector General (OIG) at the Department of Labor is unique among Inspectors
General because it has an “external” program function to conduct criminal investigations to
combat the influence of labor racketeering and organized crime in the nation’s labor unions.
Labor racketeering is the infiltration, domination, and/or use of a union or employee benefit
plan for personal benefit by illegal, violent, or fraudulent means. Organized crime is defined as
activities carried out by groups with a formalized structure whose primary objective is to obtain
money through illegal activities. Traditionally, organized crime has been carried out by La Cosa
Nostra (LCN) groups, also known as the “mob” or “mafia.” However, new groups are emerging
and organizing. For example, organized crime groups now include Asian, Russian, Eastern
European, Nigerian, and West African groups.

While the average American citizen may not be fully aware of the labor racketeering activities
carried out by organized crime groups, he or she is directly affected by them. Because
organized crime’s exercise of market power is usually concealed from public view, millions of
consumers unknowingly pay what amounts to a tax or surcharge on a wide range of goods and
services. In addition, by controlling a key union local, organized crime can control the pricing
in an entire industry. Moreover, the public also suffers when organized crime orchestrates illicit
strikes and work slowdowns or resorts to violence to maintain its operation of labor rackets.

Over the past two decades, the OIG has conducted extensive criminal investigations of labor
racketeering. Traditionally, organized crime has been involved in loan-sharking, gambling,
benefit plan fraud, violence against union members, embezzlement, and extortion. OIG
investigations have uncovered millions of dollars of workers’ dues and benefit monies that
have been siphoned off by organized crime through embezzlement or more sophisticated
devices, such as fraudulent loans or excessive fees paid to corrupt union and benefit plan
service providers. Our investigations continue to identify complex financial and investment
schemes used to defraud pension assets, resulting in millions of dollars in losses to plan
participants.

Our investigations have also revealed that the construction, surface transportation, maritime,
garment manufacturing, motion picture production, and gambling and hotel services industries
are particularly prone to the infiltration of labor racketeering. Of major concern to the OIG is the
boom in the highway construction industry created by the Transportation Equity Act. This act
provides $200 billion in funding for highway projects and has provided a significant stimulus to
the construction and maintenance sectors of the highway transportation industry. The infusion
of vast sums of money into the construction industry, which has historically been influenced by
organized crime and labor racketeering, has increased the need for oversight to reduce fraud
and manipulation of unions, worker benefit plans, and labor management relationships. To this
end, we have entered into a cooperative effort with the Department of Transportation’s OIG as
part of a nationwide probe of this industry, participating in its training conference and opening
joint investigations.

As labor racketeering evolves and moves beyond its traditional activities, the OIG is expanding
its investigative program to address these new areas. The following cases are illustrative of our
work in helping to eradicate both traditional and nontraditional labor racketeering in the nation’s
labor unions, employee benefit plans, and workplaces.
                                                                      Labor Racketeering
                             Benefit Plan Investigations


                            In addition to investigating corruption involving general union funds, the
                            OIG is responsible for combating corruption involving the monies in union-
                            sponsored benefit plans. These pension plans and health and welfare
                            benefit plans comprise hundreds of billions of dollars in assets. Our
                            investigations have shown that these vast sums of money remain
                            vulnerable to corrupt union officials and organized crime influence.
                            Service providers to union benefit plans continue to be a strong focus of
                            the OIG’s investigations, particularly those servicing pension plans. The
                            cases summarized in this section include examples of both health plan
                            and pension plan corruption.

    Health and Welfare Fund
    Medical Provider Sentenced to
    14 Years in Prison

                            On September 11, 2002, Dr. Felix Vasquez-Ruiz of Chicago, Illinois, was
                            sentenced to 14 years’ imprisonment and 3 years’ supervised release.
                            He was also ordered to pay $4 million in restitution, $2,700 in fines, and
                            $69,000 in forfeitures. Dr. Vasquez-Ruiz was found guilty on 7 counts of
                            mail fraud and 20 counts of health care fraud. He had defrauded
                            11 prominent Chicago-based union health and welfare funds, including
                            those of the Teamsters, Laborers, and others, by billing in excess of
                            $400,000 in unnecessary and expensive medical services. The
                            investigation revealed that the doctor targeted Hispanic union members
                            and enticed them with promises of free laboratory screening exams. He
                            then subjected them to painful, unnecessary tests while failing to provide
                            the proper treatment for actual complaints. The investigation was jointly
                            worked with the Pension and Welfare Benefits Administration (PWBA)
                            and the FBI. U.S. v. Vasquez-Ruiz (N.D. Illinois)

    Florida Man Sentenced for Selling
    Unlicensed Insurance Policies

                            On August 2, 2002, David Weinstein, chief organizer of a Pennsylvania
                            health insurance company, was sentenced to 36 months’ probation for
                            mail and wire fraud. He was also ordered to pay $600,000. Weinstein
                            sold thousands of Multiple Employer Welfare Arrangement health
                            insurance policies to Florida residents and left approximately
                            1,600 claims, totaling $4.3 million, unpaid. He marketed the insurance as
                            if it were a qualified Employee Retirement Income Security Act (ERISA)
                            plan that was exempt from state regulation, when it was not. Weinstein
                            is banned for life from selling insurance and is prohibited from
                            participating in any banking and insurance industry activities in Florida.
                            The case was worked jointly with the Florida Department of Insurance,
                            Insurance Fraud Division. State of Florida v. Weinstein

Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                   45
     Labor Racketeering
                                     Benefit Plan Investigations


     Defendant Pleads Guilty to
     Embezzlement

                      John Dunsmoor, a former registered investment advisor for Indiana-
                      based Local 1969 of the International Longshoremen’s Association
                      (ILA), pled guilty on June 21, 2002, to embezzlement from an employee
                      benefit plan under ERISA and to violations of the Federal money-
                      laundering statute. By entering the guilty plea, Dunsmoor admitted that
                      he converted over $500,000 of pension fund monies for his own use
                      through various Nevada real estate investments. He also admitted
                      having laundered over $67,000 of converted pension funds through
                      offshore bank accounts to purchase a luxury yacht. Dunsmoor is a
                      former FBI special agent, county prosecutor, and defense attorney.

                      Dunsmoor’s business partner, Michael Daher Sr., was charged with
                      embezzlement from an employee benefit plan under ERISA and wire
                      fraud. Daher pled guilty in May 2001 and was sentenced on
                      July 31, 2002, to 41 months’ incarceration and 36 months’ supervised
                      release. He was also ordered to make restitution to the ILA Local 1969
                      pension fund of over $1.6 million. This was a joint case with PWBA. U.S.
                      v. Dunsmoor (N.D. Indiana), U.S. v. Daher (D. Colorado)

     Investment Advisors Sentenced to
     Pay Nearly $2 Million Each

                      On August 14, 2002, Stephen Gaines and Neal Katz, investment brokers
                      from California-based Capital Access, Inc., received identical sentences
                      of 18 months in prison, 3 years’ supervised release, and a fine of $10,000
                      and were ordered to pay over $1.8 million each in restitution. In April
                      2001, Gaines and Katz pled guilty to mail fraud and money laundering
                      relating to an investment scheme. Gaines and Katz solicited more than
                      $4 million of investors’ funds, including funds from ERISA-covered profit-
                      sharing plans, which they claimed would be invested in “bank trading
                      programs” involving the buying and selling of commercial paper issued
                      by European banks. Instead, they invested the funds in other ventures
                      and used them to support their lifestyles. To prevent detection of the
                      fraud and to induce additional investments, Gaines and Katz made
                      “lulling payments” to investors, which they falsely claimed represented
                      the proceeds of the bank trading program investment. U.S. v. Gaines,
                      U.S. v. Katz (N.D. California)




                                                                Semiannual Report to the Congress
46                                                               April 1, 2002–September 30, 2002
                                                                          Labor Racketeering
                             Benefit Plan Investigations


    Defendants Sentenced in Oregon for
    Defrauding Union Pension Plans

                            Jeffrey Grayson, principal owner of Capital Consultants, an investment
                            company, pled guilty in April 2002 to mail fraud and assisting in the
                            preparation of a false tax return. Grayson was indicted in October 2001
                            for the payment of over $200,000 to John Abbott, a trustee for Laborers
                            union pension plans that invested with Grayson’s company. Grayson
                            was also charged with devising a scheme to defraud the pension plans
                            of their right to “honest services.” The investigation revealed that
                            between 1990 and 1998 Grayson and Abbott engaged in a conspiracy
                            whereby Grayson secretly provided money and other things of value to
                            Abbott.

                            In May 2002, a hearing was held in U.S. District Court regarding the
                            substantial assistance provided to the prosecution by Barclay Grayson,
                            Capital Consultants’ former president and Jeffrey Grayson’s son.
                            Barclay’s sentence was lowered from 24 months to 18 months in Federal
                            prison, and he was ordered to pay $500,000 in restitution.

                            In August 2002, a Capital Consultants employee and two former union
                            plan trustees were charged in a 41-count indictment for influencing the
                            operations of an employee benefit plan. The investigation found that the
                            employee provided hunting and fishing trips to the employee benefit plan
                            trustees. Also in August, two more trustees of union pension funds
                            managed by Capital Consultants pled guilty to charges related to filing
                            false reports with DOL. John Lontine, former trustee of Sheet Metal
                            Workers Local 9, and Robert Mayhew, trustee of the International
                            Brotherhood of Electrical Workers Eighth District pension fund, were
                            charged with failing to disclose that they received gifts from Capital
                            Consultants. This investigation is a joint effort with the IRS, the FBI, and
                            DOL’s PWBA and Office of Labor-Management Standards (OLMS).
                            U.S. v. Grayson, et al. (D. Oregon)

    Owner of Trucking Company
    Sentenced for Embezzling Funds

                            On May 3, 2002, Frank Campanella, a Colombo LCN associate, was
                            sentenced to over four years in prison and was ordered to pay a $5,000
                            fine for embezzling funds in violation of the RICO statute. Campanella
                            acknowledged that he knowingly underreported to Production Workers
                            Union Local 400 the number of employees and hours worked at his New
                            York trucking company. He deprived Local 400’s health and welfare and
                            pension funds of nearly $2 million. This is a joint effort with the FBI, the IRS,
                            and the INS. U.S. v. Campanella (E.D. New York)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                          47
     Labor Racketeering
                                     Internal Union Investigations


                      Our internal union cases often involve instances of corruption, such as
                      union officers’ abuse of their positions of authority to embezzle money
                      from union accounts for their own benefit. Investigations in this area
                      also focus on situations in which organized crime groups control or
                      influence a labor organization, frequently in order to exercise influence
                      in an industry for corrupt purposes or to operate traditional vice schemes
                      such as drug dealing and theft. Following are examples illustrative of our
                      work in this area.


     Organized Crime Boss and
     16 Others Indicted for Extortion

                      On June 4, 2002, seventeen members and associates of the Gambino
                      Organized Crime Family, including Gambino Family boss Peter Gotti,
                      were charged in a 68-count indictment for crimes including racketeering,
                      extortion, gambling, money laundering, and wire fraud. Allegedly, these
                      individuals corruptly influenced unions and businesses on the New York
                      and New Jersey waterfronts. Victims of the extortion included the
                      International Longshoremen’s Association, two ILA Local unions, ILA
                      members, MILA (the ILA health plan), Howland Hook Marine Terminal,
                      and waterfront businessmen. One associate was indicted for allegedly
                      paying a $400,000 kickback to associates of the Gambino and
                      Genovese LCN Families in exchange for the awarding of the
                      pharmaceutical program benefit contract for MILA. This investigation
                      was conducted by a task force composed of the DOL OIG, the U.S.
                      Attorney’s Office (E.D. New York), the FBI, the Waterfront Commission
                      of New York Harbor, the NYC Organized Crime Task Force, the
                      Richmond County District Attorney’s Office, and the NYC Police
                      Department. U.S. v. Gotti, et al. (E.D. New York)

     Union Business Manager Sentenced
     in Georgia

                      Stephen Jones, former Iron Workers Local 387 business manager, was
                      sentenced on April 11, 2002, to six months’ incarceration and three
                      years’ probation. In addition, Jones was ordered to pay $90,000 in
                      restitution to Iron Workers Local Union 387 and is barred from holding
                      union office for 13 years following the completion of his sentence. In
                      October 2001, Jones pled guilty to embezzlement from a union and
                      embezzlement from an employee benefit plan under ERISA. The
                      investigation, conducted jointly with PWBA and OLMS, revealed that
                      Jones received unauthorized funds from the union’s general and
                      pension benefit plan. U.S. v. Jones (N.D. Georgia)




                                                                Semiannual Report to the Congress
48                                                               April 1, 2002–September 30, 2002
                                                                        Labor Racketeering
                           Internal Union Investigations


    Ohio Businessman Ordered to Pay
    over $1 Million

                            On June 4, 2002, Anthony Bucci, owner of Prime Contractors, Inc., was
                            sentenced to two years’ probation and six months’ home confinement
                            and was ordered to pay over $1 million in restitution. Bucci pled guilty to
                            conspiracy charges in May 1999 for the fraudulent use of minority
                            business enterprises on highway construction projects. His company
                            obtained over $8 million worth of contracts from the Ohio Department of
                            Transportation for highway construction. In order to obtain the contracts
                            and meet the requirements, Bucci used minority-owned businesses as
                            “fronts” to make it appear they were receiving at least 7% of the
                            contracts. In fact, the companies did no work on the projects and were
                            paid a small fee by Bucci for the use of their names on the documents
                            required to be filed with the State of Ohio.

                            Anthony Bucci’s sentencing was originally scheduled in 1999 but was
                            postponed due to his cooperation in ongoing criminal investigations of
                            public officials in Youngstown, Ohio. Bucci testified in the trial of former
                            U.S. congressman James Traficant Jr. of Youngstown, Ohio. The DOL
                            OIG, the IRS, the FBI, and the Department of Transportation (DOT) OIG
                            participated in the investigation.

                            In a related case, James R. Sabatine, the former owner of Hardrives
                            Paving and Construction, Inc., was sentenced in August 2002 to five
                            months’ incarceration and two years’ supervised release. He was also
                            ordered to pay a $7,500 fine, restitution of almost $19,000, and about
                            $67,000 in taxes due to the IRS. Sabatine pled guilty in August 2001 to
                            violating the Federal RICO and tax statutes for making a $2,400
                            payment to then congressman Traficant in exchange for his assistance
                            in contacting railroad officials to obtain access to a rail line near
                            Sabatine’s asphalt plant. The DOL OIG, the DOT OIG, the IRS, the FBI,
                            and PWBA participated in this investigation.

                            Former congressman Traficant was sentenced on July 30, 2002, less than
                            one week after his removal from office. He was sentenced to eight years’
                            incarceration and three years’ supervised release, fined $150,000, and
                            ordered to pay $96,000 in forfeitures and $19,600 in unpaid taxes. In April
                            2002, Traficant was found guilty on all 10 counts charged in an October
                            2001 superseding indictment. Among the charges were racketeering,
                            bribery, and tax fraud. The investigation revealed that he sought bribes
                            from established businesspeople in the Youngstown area in exchange for
                            his political influence. The OIG assisted the FBI and the IRS in this
                            investigation. U.S. v. Bucci, U.S. v. Sabatine, U.S. v. Traficant (N.D. Ohio)




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                      49
     Labor Racketeering
                                     Internal Union Investigations


     Former Union Official Sentenced
     in Louisiana

                     On April 19, 2002, Willie Ray Walker, former secretary-treasurer of
                     International Longshoremen’s Association Local 1349, was sentenced
                     to one year in prison and three years’ supervised release. Walker began
                     repaying ILA Local 1349 prior to sentencing and was ordered to continue
                     paying over $68,000 in restitution. In addition, he will be debarred from
                     holding office or a position of trust with a union for 13 years following his
                     release from prison.

                     In January 2002, Walker pled guilty to embezzlement of labor funds by
                     a union officer. The investigation revealed that he embezzled over
                     $91,000 dating back to January 1997. Walker admitted that he wrote
                     checks for fictitious union expenses to himself and used the money for
                     his personal benefit. He forged the second signature required on union
                     checks. Walker also reported that he destroyed union documents and
                     records in order to conceal his criminal activity. This case was worked
                     jointly with DOL’s OLMS and the FBI. U.S. v. Walker (W.D. Louisiana)

     New York City Plumbing Inspectors
     Plead Guilty to Extortion

                     As of August 2002, six New York City Department of Buildings plumbing
                     inspectors have pled guilty to extortion charges for conspiring to extort
                     payoffs from plumbing contractors. In a June 2002 indictment,
                     19 plumbing inspectors were charged under the Hobbs Act with extortion.
                     By paying to have the inspectors overlook possible violations and expedite
                     inspections, contractors could avoid discontinuance of the plumbing work,
                     citations, and inspectors’ refusal to sign off on plumbing jobs. This
                     investigation is one of a series of cases being conducted as part of the
                     ongoing industry probe into corruption in the construction industry. This is
                     a joint investigation with the FBI, the New York State Organized Crime
                     Task Force, the NYPD, and the Waterfront Commission of New York
                     Harbor. U.S. v. Ferrara, et al. (E.D. New York)




                                                                 Semiannual Report to the Congress
50                                                                April 1, 2002–September 30, 2002
        Strengthening
        Departmental
           Programs




     Legislative
Recommendations
        Legislative
     Recommendations


Allow DOL Access to Unemployment Insurance and Social Security
Wage Records to Effectively Evaluate Program Performance
                      At a time of shifting spending priorities, it is imperative that training
                      programs produce the results that Congress intended and that benefits
                      be properly allocated. Toward that end, the Department of Labor needs
                      the legislative authority to gain unimpeded access to Unemployment
                      Insurance (UI) and Social Security Administration (SSA) wage records.
                      Such access would allow the Department to measure the long-term
                      impact of employment and training services on job retention and
                      earnings and to identify individuals who are receiving workers’
                      compensation disability benefits despite working. Our experience has
                      been that outcome information is very difficult to obtain, especially if
                      agencies cannot access UI and SSA wage records. If access to such
                      wage records were granted, an automated SSA wage record
                      crossmatch could be conducted annually, which could help the
                      Department better identify, and remove from the disability rolls, FECA
                      claimants who fraudulently conceal income earnings. We estimated in a
                      September 2000 audit report that the Department could save over
                      $3.5 million in FECA administrative expenses over 10 years if such an
                      annual crossmatch were conducted. With respect to UI, while the OIG
                      has the authority to issue subpoenas to obtain UI wage records (but not
                      to obtain SSA wage records), this subpoena authority does not always
                      enable us to obtain them in a timely and useful manner, as states may
                      invoke Federal UI confidentiality policies and/or state non-disclosure
                      statutes to hinder our access.


Enhance Protection of Pension Plan Assets by Amending the
Employee Retirement Income Security Act of 1974

     Strengthen and Make More
     Consistent the Criminal Penalties in
     Title 18 of the U.S. Code to Better
     Protect Employee Pension Plans
     Subject to ERISA

                      Statutes under Title 18 prohibit the embezzlement or theft from
                      employee pension and welfare plans (18 USC 664), the making of false
                      statements and concealing of facts in documents required by ERISA
                      (18 USC 1027), and the giving or acceptance of bribes or graft payments
                      in connection with the operation of employee pension or welfare benefit
                      plans covered by ERISA (18 USC 1954). These statutes are the primary
                      criminal enforcement tools for protecting the millions of plans under
                      ERISA and their assets. Currently, violators of Sections 664 and 1027
                      are subject to five years’ imprisonment, while those who violate



                                                                Semiannual Report to the Congress
52                                                               April 1, 2002–September 30, 2002
                                                                           Legislative
                                                                        Recommendations

                            Section 1954 are subject to three years’ imprisonment. We believe that
                            raising the maximum penalties to 10 years for all three violations would
                            serve as a greater deterrent and further protect employee pension plans
                            than what currently exists.

    Repeal the Limited-Scope
    Audit Provision

                            For over 10 years, the OIG has recommended that Congress repeal the
                            limited-scope audit exemption from ERISA. The limited-scope audit
                            exemption allows those plan assets that are invested in banks, savings
                            and loans, insurance companies, and the like to be excluded from audits
                            of employee benefit plans. At the time ERISA was passed over two
                            decades ago, it was assumed that all of the funds invested in those
                            regulated institutions were being adequately reviewed. Unfortunately,
                            as we have found from the savings and loan crisis, that is not always the
                            case.

                            Currently, because of this provision, independent public accountants
                            conducting audits of pension plans cannot render an opinion on the
                            plans’ financial statements in accordance with professional auditing
                            standards. It is important to note that the disclaimer of any opinion on the
                            financial statements includes even those assets that are not held by
                            financial institutions. These “no opinion” audits provide no substantive
                            assurance of asset integrity to benefit participants or the Department.

    Require Direct Reporting of Any
    ERISA Violations to the Department

                            The public accounting profession and plan administrators have a
                            responsibility to be cognizant of potential fraud and other illegal acts in
                            financial statement audits. However, under current law, a plan auditor
                            who finds a potential ERISA violation is not responsible for ensuring that
                            it is reported to DOL. Therefore, in the interests of plan participants, we
                            recommend that plan administrators or auditors be required to ensure
                            that any potential ERISA violations are promptly reported to DOL. This
                            would enhance oversight of pension plan assets, ensure the timely
                            reporting of violations, and involve accountants in the kind of active role
                            that they are supposed to play in the safeguarding of pension assets.
                            Direct reporting would also provide a first line of defense to plan
                            participants through the timely and direct reporting of potential problems
                            with employee benefit plans.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                     53
        Legislative
     Recommendations


Permanent Statutory Law Enforcement Authority
                  The Senate recently passed S. 2530, which amends the Inspector
                  General Act of 1978 (5 U.S.C. App) and establishes statutory law
                  enforcement authority for certain Inspector General agents engaged in
                  official duties. This permanent authority for OIG agents extends no new
                  authorities but would simply recognize in statute authorities that are
                  already being exercised and remove the need for temporary
                  authorization, which the OIG has operated under for many years.
                  Temporary law enforcement authority has been provided first through
                  case-by-case deputation and currently with an organizational blanket
                  deputation through a memorandum of understanding (MOU) with the
                  Department of Justice (DOJ). Permanent law enforcement authority
                  would provide certainty and permanence for OIG enforcement activities
                  for on-going and lengthy investigations; would be consistent with and
                  promote the continued independence of the OIG; and would address
                  efficiency issues by removing the need to obtain blanket authorization on
                  a yearly or case-by-case basis. The OIG supports legislation that could
                  mirror the framework under which our agents are currently deputized
                  under the MOU and could require the OIG to continue to follow DOJ
                  operational guidelines, conform to DOJ’s training and qualification
                  requirements, and coordinate extensively through the cognizant U.S.
                  Attorney’s Office.


Improving the Integrity of the Federal Employees’ Compensation Act
                  The OIG supports legislation that would improve the integrity of the
                  Federal Employees’ Compensation Act (FECA). Implementing the
                  following changes would result in significant savings for the Federal
                  government:
                       •   Moving people into a form of retirement (FECA annuity or Office
                           of Personnel Management retirement) after a certain age if they
                           are still injured. There is an unintended incentive in the FECA
                           program for claimants to remain on the disability rolls because
                           their tax-free benefits may be greater than their taxable benefits
                           in a Federal retirement program.
                       •   Returning a 3-day waiting period to the beginning of the
                           45-day continuation of pay process to require employees to use
                           accrued sick leave or leave without pay before their FECA
                           benefits begin. Currently this waiting period is at the end of the
                           claims process.
                       •   Granting authority to the Department to access Social Security
                           wage records in order to identify claimants defrauding the
                           program.




                                                             Semiannual Report to the Congress
54                                                            April 1, 2002–September 30, 2002
  Reports
    and
  Statistics




Appendix
              Appendix
                                                           Reporting Requirements

Requirements Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulation .............................................................. 51
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies .............................................. All
Section 5(a)(2) - Recommendations with Respect to Significant Problems,
 Abuses, and Deficiencies ......................................................................................................... All
Section 5(a)(3) - Prior Significant Recommendations on Which
 Corrective Action Has Not Been Completed ....................................................................... None
Section 5(a)(4) - Matters Referred to Prosecutive Authorities .......................... Inside Front Cover
Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused ................................................................................................... None
Section 5(a)(6) - List of Audit Reports ......................................................................................... 75
Section 5(a)(7) - Summary of Significant Reports ...................................................................... All
Section 5(a)(8) - Statistical Tables on Management Decisions
 on Questioned Costs ............................................................................................................... 69
Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use .............................................................. 67
Section 5(a)(10) - Summary of Each Audit Report over Six Months Old for
 Which No Management Decision Has Been Made .................................................................. 72
Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision .......................................................................................... None
Section 5(a)(12) - Information on Any Significant Management Decisions with
 Which the Inspector General Disagrees ............................................................................. None

Requirements Under Senate Report No. 96-829

Resolution of Audits .................................................................................................................... 75
Money Owed to the Department ................................................................................................. 71

Requirements Under the Reports Consolidation Act of 2000

Top Management Challenges Facing the U.S. Department of Labor ......................................... 57




                                                                                                Semiannual Report to the Congress
56                                                                                               April 1, 2002–September 30, 2002
                                                                                          Appendix
                  Top DOL Management Challenges


At least annually, the OIG identifies and reports on what it considers to be the most serious management
challenges facing the Department of Labor. Following are the top management challenges as of this
semiannual reporting period.



                         Grant Accountability, Performance, and Effectiveness

  The Department continues to face challenges in effectively providing accountability for the costs and results
  of its grant programs. The Department provides almost $9.5 billion in grants each year, mostly in the
  employment and training area. However, there are inherent risks associated with these grants because a large
  share of the funding is passed down to subgrantees and contractors, making it difficult to provide direct Federal
  oversight. In addition, many of the grantees are relatively small and/or new to administering Federal grants.
  The President’s Faith-Based and Community Initiative expanded the small grantee universe; the Department
  recently awarded a first wave of $17.5 million in grants to small and newcomer organizations. Recent OIG
  audits highlight our concerns about accountability over DOL grants in the following areas under this initiative:

  Preaward/Award: Federal program regulations establish requirements related to procurements, including the
  use of competitive procurement procedures in selecting and awarding funds to entities to provide services. We
  have identified instances where subgrants and contracts were awarded without competition, contrary to
  program requirements. We have also found weak internal controls over the awards process, and instances
  where services were performed in the absence of a contract or grant agreement. For example, our March 2002
  audit of a Welfare-to-Work (WtW) grantee that received over $500,000 in WtW funds found that procurement
  procedures were not followed in selecting the grantee as a WtW service provider. We also determined that the
  grantee was not financially solvent, and had not demonstrated success in administering Federal grant funds,
  which the OIG concluded adversely affected the quality of training provided.

  Grant Execution: The purpose and objectives of Federal grant programs are set out in statutes, regulations,
  and grant agreements. These grants and subgrants establish performance levels that must be achieved. In
  addition, program laws, regulations, and individual agreements impose requirements that affect allowable
  costs. We have identified numerous deficiencies related to inadequate performance and/or unallowable
  charges. For example, an OIG audit found that only 59 participants were served under two WtW contracts that
  were expected to serve 170. Our March 2002 audit of a WtW competitive grantee found payments were made
  for costs that were: incurred before contracts were effective; in excess of grant limitations; inadequately
  supported; and/or not authorized by the grant agreement or individual contracts. After the issuance of this audit
  report, ETA did not extend this grant.

  Reporting: Recipients of Federal funds are required to maintain systems capable of recording and reporting
  accurate and timely financial, participant, and performance information. However, our November 2001 audit of
  DOL grants to assist trade-affected dislocated workers in El Paso, Texas, found that the grantee’s management
  information system overstated the placement rate as 81%, as opposed to a rate of 36.2% as determined by our
  audit. In another WtW audit, the OIG found that required Federal reports were sporadically submitted, and those
  that were received were inaccurate.

  Oversight: Because grant funds are spent by entities outside the Federal government, appropriate agency
  guidance, monitoring, and oversight of grantees are key to providing accountability over such funds. During our
  audits of several grants awarded to State Workforce Agencies to assure Y2K readiness, we learned ETA had
  informally issued guidance to the states that appeared to confuse, or even contradict, prior ETA instructions on
  the use of funds. In addition, our recent audits of selected states’ obligation and expenditure of WIA funds found
  that ETA had not issued clear definitions and reporting instructions regarding the reporting of obligations.

  Recently, the OIG has worked with ETA, DOL’s largest grantor agency, to help assess weaknesses in its grant
  accountability procedures and to develop potential solutions. In April 2002, ETA took a significant step toward
  improving accountability when it issued a grant/contract administration implementation plan that addressed
  many of the OIG’s concerns. The plan included a comprehensive list of issues, recommendations, timelines,




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                       57
              Appendix
                                                      Top DOL Management Challenges




     responsible offices, and budgetary needs and identified specific, measurable strategies to be implemented.
     The OIG will continue to work with ETA and the Department to improve accountability over DOL grants so that
     funds are properly managed.

     The OIG previously identified the rapid expansion of the Bureau of International Labor Affairs (ILAB) as one of
     the top management challenges facing the Department. While ILAB has improved its grant accountability by
     implementing most of the recommendations from prior OIG audits and evaluations, additional improvements are
     needed. Specifically, actions need to be taken to improve internal controls and system security over the Activity
     Tracking System, which ILAB developed to provide day-to-day project financial information. In addition, DOL’s
     Office of Administration and Management, Office of the Chief Financial Officer, and ILAB need to work together
     to ensure that ILAB is able to obtain pertinent, timely information from DOL’s Core Financial Management
     System.


                                             WIA Program Implementation

     The Department also faces significant challenges associated with WIA training and employment programs for
     youth, adults, and dislocated workers. Designed to improve the occupational skills, employment prospects,
     and earning potential of participants, these programs are funded at billions of dollars annually. The upcoming
     reauthorization of WIA and related rulemaking, as well as OIG recommendations on WIA activities, present
     opportunities to make needed improvements to the operation of these key programs.

     Resolving Inconsistencies in WIA: Traditionally, a tension has existed between providing states and local
     governments maximum flexibility in running employment and training programs and assuring financial and
     performance accountability for such programs. Both increased accountability and state and local flexibility are
     among the seven key principles embodied in the Workforce Investment Act of 1998, which superseded the Job
     Training Partnership Act on July 1, 2000.

     In implementing WIA, the Department left many key terms and definitions to state discretion. Some of these
     impact on reporting against performance measures. For example, credential attainment is a performance
     measure for the WIA adult, dislocated worker, and youth training programs, and states compete for incentive
     money based on their achievement of this and other performance measures. However, the states have wide
     latitude in determining the definition of “credential.” As a result, depending on states’ policies, credentials could
     encompass anything from a two-week word processing course to a two-year associate’s degree. Also, the
     OIG’s recent audits of selected states’ obligations and expenditures of WIA funds found confusion exists over
     ETA’s definition of what constitutes a local obligation that states are required to report on Financial Status
     Reports. In fact, we found disagreement existed even within ETA, which administers WIA, over this key
     reporting term. We noted states interpreted ETA’s definition differently, which resulted in inconsistent reporting
     of this item. ETA is considering ways to clarify definitions of key financial reporting terms.

     WIA authorizes appropriations through FY 2003. As WIA reauthorization is debated next year, the Department
     will be challenged to work with the Congress in drafting replacement legislation and issuing implementing
     regulations that strike an appropriate balance between the sometimes competing interests of accountability and
     flexibility.


                                                 Financial Performance

     One of the goals of the President’s Management Agenda is improved financial management. The Department
     has made great strides in financial reporting and has received clean audit opinions on its financial statements
     since FY 1997. This progress is reflected in the Department’s improved rating on the OMB Scorecard that
     measures progress toward implementing the Agenda. Previously rated as “red” in the category of financial
     management, the DOL recently received a score of “yellow” for its progress in this area. Nevertheless, the




                                                                                        Semiannual Report to the Congress
58                                                                                       April 1, 2002–September 30, 2002
                                                                                            Appendix
                  Top DOL Management Challenges




  Department faces significant challenges in producing timely financial information that can be used in its day-to-
  day management. To do so, the Department must stress proactive management of its financial records over
  financial statement preparation. Financial events and transactions need to be recorded when they occur rather
  than at year-end. There have been improvements in this area as the Department has complied with OMB’s
  required semiannual financial statements. However, key to the proactive management of the Department’s
  financial records is vesting the necessary authority in the Department’s Chief Financial Officer (CFO) to provide
  direct oversight of all financial management operations of the various DOL agencies. Historically, the CFO has
  not had this authority.

  Another challenge in this area is the adequacy of information being provided to the Department via audit reports
  conducted by independent public accountants or state auditors under the Single Audit Act. Over 90% of the
  Department’s expenditures are audited under the Single Audit Act by independent public accountants or state
  auditors throughout the country. The Department relies on the Single Audit Act to provide audits for grant costs
  as well as for Unemployment Insurance (UI) benefit costs and employer tax receipts at each of the states. During
  FY 2002, in addition to its scheduled single audit reviews, the OIG conducted comprehensive quality control
  reviews of six single audits. The results of these reviews indicate that all six had serious deficiencies, including
  inadequate sampling, which would make the reports unreliable. As a result, the OIG is increasing our monitoring
  and evaluation of single audits, and will be working with DOL’s grantor agencies to improve their monitoring and
  evaluation activities. Further, in coordination with OMB, the OIG will continue our multi-year review of single
  audit reports to determine the adequacy of the audit coverage and whether DOL can continue relying on them
  for financial management purposes.


                           Accountability: Budget and Performance Integration

  Performance budgeting is also a major focus of the President’s Management Agenda, which calls for further
  integrating budget and performance to foster a results-oriented Department that is guided by performance
  rather than process. To this end, the Department has taken initial steps toward instituting a performance
  budget for FY 2004. Key to the Department’s success in integrating budget and performance will be effective
  strategic planning, as envisioned by the Government Performance and Results Act (GPRA), and the ability to
  improve the quality and accessibility of program and cost data, including data reported by entities below the
  Federal level, which serve as a basis for determining the results achieved by programs and operations.
  Another important tool in the effort to link budget to program outcomes is the Federal Accounting Standards
  Advisory Board’s Statement of Federal Financial Accounting Standard Number 4, which is aimed at providing
  reliable and timely accounting for the full cost of Federal programs and activities.

  Quality of Program Data: The Department is limited in its ability to access and control the quality of program
  results data used to determine the attainment of its strategic plan goals. This includes difficulties associated
  with ensuring the quality of the myriad data provided by states and other sources below the Federal level,
  where 90% of the Department’s budget is actually spent. For example, past OIG audits of the WtW Competitive
  Grants, Dislocated Worker, and Trade programs disclosed high error rates in performance data reported to the
  Department by its state partners and other grantees. The errors affected performance measures, including
  participants’ wages, training activities, and successes in obtaining jobs, that serve as key indicators in
  determining the outcomes and success of the program. ETA has initiated a data validation project to create
  more precise programming specifications and standards for use in validating that the state data concerning
  WtW, WIA, and other ETA programs are correctly reported to ETA. The OIG will continue to follow ETA’s
  progress in implementing the data validation project to assure the reliability of program data.

  Access to Data: Two important tenets of GPRA are that agencies must evaluate program effectiveness and
  validate performance data. In the employment and training area, it is particularly important to know whether
  programs have resulted in individuals becoming self-sufficient by obtaining long-term unsubsidized
  employment at livable wages. Two important tools that may be used to this end are UI and Social Security
  Administration wage records of individual program participants. However, the Department is limited in its ability




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                         59
              Appendix
                                                     Top DOL Management Challenges




     to obtain such data for program evaluation and validation purposes. To enhance its ability to conduct program
     evaluation and validation in this and other equally important areas, the Department needs to have statutory
     authority to easily obtain and utilize these types of records, including the information contained in the National
     Directory of New Hires, which is administered by the Department of Health and Human Services.

     Managerial Cost Accounting: Once performance data are determined to be reliable, managerial cost
     accounting, which matches cost information with program results, is the next step in managing for results.
     During FY 1999, the Department began implementing the managerial cost accounting standard through
     agency pilot programs. It was planned that the low-level structures developed in the pilot studies would
     ultimately be aggregated to result in an integrated agency-wide cost accounting system. However, during
     FY 2001, the Department abandoned this “bottom-up” approach and began focusing on initiating a “top-down”
     alternative approach to the implementation of managerial cost accounting. This effort was to be defined by
     disaggregating high-level agency activities into their components.

     The OIG has recently reviewed the implementation efforts of these revised FY 2001 cost accounting plans, and
     found that overall, the project has had little impact on DOL’s managerial cost accounting system, practices, or
     capabilities. With the notable exception of the Bureau of Labor Statistics, agency and program managers have
     been reluctant to either begin the cost accounting process or advance beyond participating in isolated pilot
     cost studies. The OIG recognizes that an important step in assuring the proper implementation of a managerial
     cost accounting system was taken in early September 2002, when the Deputy Secretary of Labor asked that
     the CFO oversee the Department’s cost accounting policy and program. Another important element for
     matching the full cost of program activities to program results (cost-effectiveness) is the ability to associate
     employee time with specific activities (activity-based costing), and it was hoped that this element would be
     included in DOL’s new payroll system. However, activity-based costing was not included in the payroll system,
     which was implemented in August 2002.

     The OIG plans to review the CFO’s plans for the implementation of cost accounting and specific agency or
     program implementation efforts. In order for DOL’s GPRA reporting to be credible, it is important for DOL to
     ensure that the performance and cost information generated is accurate, accessible, and auditable.


                                             Security of Pension Assets

     The Department is responsible for administering and enforcing the fiduciary, reporting, and disclosure
     provisions of Title I of the Employee Retirement Income Security Act of 1974 (ERISA). The goal of Title I is to
     protect the interests of participants and their beneficiaries in employee benefit plans. Currently, there are over
     6 million private employee benefit plans, which cover approximately 150 million people, with nearly $5 trillion in
     assets. Given the size of this universe, protecting pension assets poses a significant challenge for the
     Department. The OIG has identified the following areas as particularly problematic:

     Safeguards to Protect Pension Assets: Over the years, the OIG has advocated that ERISA be amended in
     order to increase protections for pension plan participants. In particular, we have recommended that Section
     103(a)(3)(C) of ERISA be repealed. This section contains a provision that results in inadequate auditing of
     pension plan assets because it exempts from audit all pension plan funds that have been invested in
     institutions such as savings and loans, banks, or insurance companies regulated by Federal or state
     governments. Currently, because of this limited scope provision, plan auditors conducting audits of pension
     plans cannot render an opinion on the plans’ financial statements in accordance with professional auditing
     standards. These “no opinion” audits provide no substantive assurance of asset integrity to benefit participants
     or the Department. The Department has concurred with our recommendation through the years and has
     submitted legislative proposals that would repeal this provision. We urge the Department to continue to push
     for legislative change in order to adequately protect pension assets.




                                                                                      Semiannual Report to the Congress
60                                                                                     April 1, 2002–September 30, 2002
                                                                                             Appendix
                  Top DOL Management Challenges




  Further, we have recommended that plan auditors be required to report any ERISA violations directly to the
  Department. The public accounting profession has a responsibility to be cognizant of potential fraud and other
  illegal acts in financial statement audits. However, under current law, a plan auditor who finds a potential
  ERISA violation is not required to report it to the Department. In the interests of plan participants, plan auditors
  or administrators should be required to promptly report to the Department any ERISA violations.

  In addition, we believe that more clarity and guidance is needed on computing participant benefits, particularly
  with respect to cash balance plans, a growing segment of the pension universe. Industry sources estimate that,
  since the mid-1980s, 300 to 700 traditional defined benefit pension plans have converted to cash balance
  plans, potentially affecting over 8 million working Americans and involving over $334 billion in pension assets.
  The OIG recently audited a judgmental sample of cash balance plan conversions and found that while the
  conversions adequately protected accrued benefits, some of the sampled cash balance plans were
  underpaying benefits after the conversions. This was due to employer errors made while projecting participant
  benefits and cost-of-living allowances. We also found that while the Pension and Welfare Benefits
  Administration (PWBA) focused on disclosure and education, it did not review the manner in which plans
  calculated accrued benefits for those employees who left before normal retirement age (usually age 65). We
  recommended that PWBA direct more enforcement resources toward protecting the benefits of cash balance
  plan participants, and work with the IRS in developing improved guidance on calculating participant accrued
  benefits. By taking a more active role in protecting cash balance plan participant benefits, PWBA can help
  prevent future losses and correct underpayments for workers participating in cash balance plans.

  In response, PWBA stated that its enforcement oversight responsibilities are statutorily restricted. Although
  the IRS has the exclusive authority to issue regulations regarding participant benefits, PWBA has concurrent
  enforcement authority and fiduciary responsibility over participant benefits, and we believe that it should work
  with the IRS on such regulatory issues.

  Pension Plan Enforcement: Another area of concern involves the security of the billions of dollars in assets
  in private pension plans, which are an attractive target to organized crime elements, corrupt pension plan
  officials, and individuals who influence the investment activity of pension assets.

  In particular, OIG labor racketeering investigations continue to show that the security of the assets within Taft-
  Hartley plans, which are jointly administered by labor union representatives and management representatives,
  is at risk. Our investigations have uncovered multi-million dollar fraud enterprises committed against these
  plans by financial and investment service providers, who have the opportunity and ability to structure complex
  financial schemes to conceal their criminal activity. Abuses by service providers are of particular concern
  because of the potential for multi-million dollar losses since they typically provide investment or financial
  advice for more than one plan. A clear illustration is the Capital Consultants, Inc., case, one of the largest
  pension frauds in history, in which hundreds of millions of dollars were bilked from dozens of union pension
  funds.

  In addition, we have renewed concerned about the security of the assets in employer-sponsored 401(k) plans.
  In 1997, OIG testimony highlighted the problem of employers failing to promptly and appropriately deposit
  employee contributions into 401(k) plans. At that time, we believed PWBA needed to improve the targeting of
  its investigative resources toward plans with the most serious potential for abuse. The OIG believes that it is
  imperative that the Department have in place an effective targeting plan in order to meet the challenges posed
  by such fraud. Within our jurisdiction, the OIG is developing investigative casework on the growing 401(k)
  plans that are jointly administered by union and management trustees, and we will continue to monitor the
  Department’s targeting efforts in this area.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                         61
              Appendix
                                                    Top DOL Management Challenges




                                        Protection of Worker Benefit Funds

     Safeguarding Federal employee benefits programs administered by the Department of Labor is a formidable
     challenge, given the existing vulnerabilities and the sheer scope of these programs, which affect the lives of
     millions of workers and retirees and involve billions of taxpayer dollars. The OIG has identified vulnerabilities
     involving financial stability and program integrity within four of the Department’s major worker benefit programs.

     Funding Concerns

     Unemployment Trust Fund: The unemployment trust fund (UTF) was created in 1935 to protect workers
     during temporary periods of unemployment by providing income maintenance benefits. States provide
     temporary financial assistance, which is financed by employer taxes. This program paid over $44 billion in
     benefits in FY 2002.

     Recent circumstances have heightened the OIG’s concern that states may not have adequate reserves to
     meet the demands on their trust funds. After several years of decreasing unemployment, the national
     unemployment rate has increased over the last two years from 4% in FY 2000 to a current rate of over 5.5%.
     The Department has estimated that, should a severe recession occur, UTF net assets would decline by $60
     billion, or 68%, over four years. Last year, we reported our concern that 19 states’ trust funds were reported
     by the Department in its financial statements as minimally solvent in FY 2002, which was a period of economic
     expansion, and were therefore vulnerable to depletion during a recession. Currently, 26 states are being
     reported as minimally solvent. Based on a review of equity balances, the OIG believes (based on the
     Department’s criteria) that as many as five additional states could soon be added to the list.

     Another issue affecting UTF assets relates to the Department of the Treasury’s charges to the UTF for its work
     in collecting and processing unemployment taxes and administering the fund. In a 1999 audit, the OIG
     determined that the Treasury had overcharged the UTF $48 million during FYs 1996, 1997, and 1998. This
     audit found that Treasury’s method of charging for administrative costs was fragmented, cumbersome, and
     unreliable. The OIG recommended that the Departments of Labor and Treasury negotiate an alternative
     method for charging administrative costs. As a result of our audit, the Treasury Inspector General for Tax
     Administration is currently looking at Treasury’s charges to the UTF. In addition, the OIG is facilitating, and
     DOL and Treasury officials are pursuing, an agreement on a new methodology for determining Treasury’s
     administrative costs. Once agreement is reached, the OIG will continue to work with the involved parties to
     ensure that the new methodology is implemented and the $48 million in overcharges we identified in 1999–and
     any overcharges for subsequent periods–are credited to the UTF.

     In addition, overpayment problems in the UI program are of significant concern. As part of our audit of the DOL
     FY 2001 financial statements, we noted that the Benefits Accuracy Measurement (BAM) system, which was
     developed by the Department as a management tool to identify overpayment problems, projected
     overpayments of $2.3 billion for FY 2001. For the same period, actual overpayments identified through states’
     Benefit Payment Control (BPC) activities–under which each state identifies and investigates benefit
     overpayments, establishes receivables, and collects overpayments–totaled $669 million, or less than one-
     third of the amount estimated by BAM activities. We also noted that overpayment rates projected by BAM have
     remained relatively flat at approximately 8.5% over the past 12 years. This raised a concern that the BAM
     system was not being utilized to reduce the amount of overpayments, and the OIG’s ongoing audit work in this
     area continues to indicate that the information provided by BAM is not being utilized fully to prevent
     overpayment problems. ETA intends to provide more accountability and oversight with respect to UI
     overpayments, in part by developing a related outcome goal within the Department’s GPRA framework.

     Black Lung Trust Fund Deficit: DOL administers the Black Lung Trust Fund to provide disability benefits and
     medical services to eligible workers in the coal mining industry, when a mine operator cannot be determined
     liable for providing such benefits. The OIG is concerned with the escalating indebtedness of the trust fund. The
     Department’s consolidated financial statements for FY 2001 reflect that the trust fund was in debt by




                                                                                     Semiannual Report to the Congress
62                                                                                    April 1, 2002–September 30, 2002
                                                                                             Appendix
                  Top DOL Management Challenges




  $7.3 billion to the U.S. Treasury. This debt resulted from advances provided to the program, which have
  become an annual necessity for the trust fund to operate. Currently, the excise taxes are sufficient to pay
  benefits and administrative costs; however, the trust fund must continue to borrow from the Treasury to pay the
  interest due on past advances.

  DOL’s annual projections of future receipts and outlays indicate that cumulative borrowings from the Treasury
  could total $32.3 billion (unaudited) or more by 2040. According to DOL’s estimates, the excise tax collections
  by 2040 would cover less than 30% of the interest that is accruing and annual advances will exceed $1.2 billion
  per year. The Department has acknowledged that, if current operating conditions continue, a change in the
  statutory operating structure of the trust fund will be necessary to meet its obligations. The Department is
  working with the Congress on legislation to address the Trust Fund’s current debt to the U.S. Treasury and
  extend current Trust Fund excise tax rates.

  Energy Employees Occupational Illness Compensation Programs: The Energy Employees Occupational
  Illness Compensation Program Act of 2000 authorized compensation for certain illnesses suffered by
  employees of the Department of Energy, its predecessor agencies, and contractors who performed work for the
  nuclear weapons program. Presently, the program is in the developmental stages with payments expected to
  increase dramatically over the next several years, presenting a significant challenge to the Department. While
  the Department is relying on OMB’s initial PAYGO cost estimate for its calculation of the actuarial liability for the
  current year, the Department anticipates that its actuarial model to project liability will be completed in late
  October 2002.

  Program Integrity

  Unemployment Insurance: The integrity of the UI program is also of concern to the OIG. As with any multi-
  billion dollar benefit payment program, there are those who benefit from the UI program illegally. Through our
  UI investigative activities, we have identified a number of methods used to defraud the program and have
  focused on four schemes in particular: (1) fictitious and/or fraudulent employer schemes; (2) internal
  embezzlement schemes; (3) identity theft or imposter schemes; and (4) counterfeiting of UI benefit checks. We
  are particularly concerned with identity theft or imposter schemes, which occur when individual identities are
  stolen and then used to apply for UI benefits. Further, our investigations have disclosed that the ability to file
  electronic and mail claims creates a vulnerability because individuals have the opportunity to defraud multiple
  states from a single location. Schemes against the UI program have resulted in substantial losses to the UTF.
  In addition, systemic weaknesses pose problems for the UI system that need to be addressed, including loss
  of contributions due to the inability of states to search for hidden wages paid by employers who misclassify
  workers as independent contractors, employers who fail to report all wages paid, or employers who
  misrepresent their claims experience.

  Recent OIG testimony on the integrity and abuse of the UI program highlighted several recommendations to
  the Department for strengthening the program. Among our recommendations are enhancing fraud detection
  and investigative training for state personnel who are responsible for benefit payment control and internal
  security. This training should focus on fraud prevention and detection, information sharing regarding common
  fraud schemes, and dissemination of best practices used by the states. This transfer of knowledge would
  assist the states in their efforts to improve their enforcement and oversight capabilities.

  Federal Employees’ Compensation Act: Recent OIG testimony highlighted some of our management and
  operational concerns regarding the Federal Employees’ Compensation Act (FECA) program, which provides
  compensation and medical care for Federal employees who suffer job-related injuries, diseases, or death. While
  the Department has initiated several measures to enhance the integrity of the $2 billion FECA program, OIG
  investigations continue to disclose the vulnerabilities to fraud committed by medical providers and claimants.
  Fraudulent activities by medical providers include billing the government for services that were not rendered,
  charging multiple times for the same procedure, billing for non-existent illnesses or injuries, and
  overcharging for services. Claimant fraud activities include reporting false injuries, recovering but then continuing
  to claim benefits, and failing to report or underreporting outside employment income to the Department.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                          63
             Appendix
                                                   Top DOL Management Challenges




                             Information Technology and Electronic Government

     The expansion of electronic government is also among the aims of the President’s Management Agenda. This
     presents challenges for the Department, such as the security of its information technology (IT) assets, the
     seamless implementation of its new IT architecture, and the integrity of its benefits program in an electronic
     government environment.

     Pursuant to the Government Information Security Reform Act, we provided to the Office of Management and
     Budget the OIG’s Executive Summary Report on the results of OIG IT audits and evaluations during FY 2002.
     Based on 16 audits and evaluations, including systems security tests, and the independent verification and
     validation of the Department’s Plans of Action and Milestones, we found DOL is improving upon its information
     security program. The Department has provided much needed direction for its information security program,
     resulting in a more coordinated and comprehensive approach in implementing system security. However, while
     the efforts by the Department and program components are notable, the OIG continues to identify areas needing
     improvement. The Department will continue to be challenged in assessing risks; implementing preventive and/
     or detective management, operational, and technical controls; and identifying vulnerabilities through iterative
     testing and managing the related mitigation activities.

     Security of IT Assets: DOL currently operates 82 sensitive systems, including mission-critical information
     systems, encompassing application and general support systems. The Department relies on these systems to
     monitor and analyze the nation’s labor market and economic activities, manage workforce services, and protect
     and compensate American workers. Recent OIG audits revealed specific vulnerabilities in computer security
     and protection of assets. Further, the Department is also implementing a new IT enterprise-wide architecture
     and is modernizing its IT systems accordingly. Although the Department has been proactive in moving to correct
     weaknesses as they are identified, the Department needs to be more vigilant in securing its major systems
     against threats and loss of assets at the system level. This requires a chief information officer (CIO) with
     sufficient authority and organizational independence from other agencies within the Department. Currently, the
     CIO is the Assistant Secretary for Administration and Management, who is also responsible for numerous
     administrative functions of the Department that may either divert attention from or conflict with
     IT responsibilities.

     Program Integrity in an Electronic Environment: The Department and its program partners are moving from
     a paper environment to an electronic one for the delivery of services, benefits, and program administration. The
     use of automated procedures and Internet communications has the potential to broaden the range of services,
     increase hours of operation, and reduce administrative costs. However, this move also brings new and
     increased vulnerability to misuse, fraud, and monetary loss. This has been evidenced in recent OIG casework
     in worker benefits programs. Therefore, to assure program integrity, the Department must assess the risks
     involved and utilize a comprehensive, integrated approach to oversight and enforcement that addresses
     technological changes to how services are provided and benefits paid.


                               Integrity of Foreign Labor Certification Programs

     The Department’s foreign labor certification programs provide employers access to foreign labor. The
     permanent H-2A and H-2B programs are designed to ensure that the admission of alien workers does not
     adversely affect the job opportunities, wages, and working conditions of American workers or legal resident
     aliens. The H-1B Visa Specialty Workers program helps employers compete in the global market by giving them
     access to highly qualified individuals in specialty occupations. Abuses of these programs may result in
     economic harm to American workers and businesses, exploitation of foreign workers, and security risks
     associated with aliens who are admitted to this country by fraudulent means.

     The Department’s ability to enhance the integrity of the H-1B program is severely challenged because it lacks
     the authority to validate information on applications completed by program participants. Under the program,




                                                                                   Semiannual Report to the Congress
64                                                                                  April 1, 2002–September 30, 2002
                                                                                            Appendix
                  Top DOL Management Challenges




  employers who intend to temporarily employ foreign specialty-occupation workers are required to file labor
  condition applications with the Department stating that appropriate wage rates will be paid and workplace
  guidelines followed. DOL is statutorily required to certify applications unless it determines them to be
  “incomplete or obviously inaccurate.” Under current law, the Department’s role in reviewing labor condition
  applications amounts to a rubber stamp.

  The OIG believes that if the Department is to have a meaningful role in the labor certification process, it should
  have corresponding statutory authority to ensure the integrity of the process, including verifying the accuracy
  of information provided on labor condition applications. This is critical because the OIG continues to identify
  fraud in the foreign labor certification programs, particularly the H-1B program. These cases involve fraudulent
  petitions filed with DOL on behalf of fictitious companies and corporations, petitions that use the names of
  legitimate companies and corporations without their knowledge or permission, and immigration attorneys and
  labor brokers who collect fees and file fraudulent applications on behalf of aliens. For example, a recent joint
  investigation led by the OIG found that a Virginia attorney, with the help of associates, filed 1,400 fraudulent
  labor certification applications. For one small restaurant, he filed 238 applications for cooks over a period of 17
  months. The attorney was indicted in September 2002, on charges including labor certification and immigration
  fraud.


                                          Human Capital Management

  The management of human capital will present a significant challenge to the Department over the next decade,
  due to anticipated workforce and skills shortages. As many Federal workers become eligible for retirement, the
  Department’s ability to recruit and retain highly qualified people will be essential to the successful
  accomplishment of its mission. The Department projects that 27% of its workforce, as well as about 50% of its
  supervisors, are eligible to retire within the next five years. The resulting need for human capital planning across
  government has been highlighted both in the President’s Management Agenda and a 2001 General Accounting
  Office report that added strategic human capital management to its list of Federal programs and operations
  identified as high risk.

  Recognizing this challenge, the Department has instituted a number of policies to maximize its recruitment and
  retention of talented people. These include increased use of special hiring programs, telework, flexible work
  schedules, payment of student loans, transportation and childcare subsidies, training and professional
  development, succession planning, and retention and recruitment bonuses. The Department also has indicated
  that it plans to implement a Department-wide strategy to address succession planning, core competency
  analysis and training, and the further use of personnel flexibilities. Maximizing the efficiency and utilization of
  these programs must remain a priority if the Department is to be truly effective in attracting and keeping the best
  people.

  The OIG recently evaluated both the Department’s telework program and its participation in the Presidential
  Management Internship program, which is designed to attract individuals with advanced degrees to Federal
  service. In these studies, we identified ways to improve the use of these programs as recruitment and retention
  tools.

  In addition, there are a number of specific legislative, regulatory, and policy changes that would be helpful to
  Federal agencies like DOL in more effectively competing with private industry for highly skilled personnel and
  in retaining qualified employees. Flexibilities are needed in the areas of salary levels, recruitment bonuses, and
  promotions, as well as a number of hiring rules such as the number of selected qualified candidates who may
  be considered from a certification list. With such flexibilities, however, comes an even greater responsibility for
  DOL management to ensure that any new authorities are applied appropriately.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                                         65
              Appendix
                                                     Top DOL Management Challenges




                               Effectiveness of Mine Safety and Health Programs

     In January 2001, the OIG listed enhancing the effectiveness of programs administered by the Mine Safety and
     Health Administration (MSHA) as a management challenge to the Department. Prior evaluations by the OIG had
     identified a number of mine health and safety issues needing the Department’s attention to ensure programs
     that protect miners from injury or death operate efficiently and effectively. MSHA has taken significant steps
     toward addressing the recommendations that resulted from those evaluations, and will be challenged in the
     coming year to fully implement outstanding recommendations, some of which require rulemaking.

     For example, an OIG evaluation found MSHA was unable to complete statutorily mandated inspections of Metal/
     Nonmetal mine operations because of the rapid growth in mine operations, reductions in the numbers of
     inspectors, and shifts toward compliance assistance. Chief among our recommendations was that MSHA study
     its enforcement and compliance assistance programs to determine which have been most effective in reducing
     injuries and fatalities. In response to our report, MSHA has completed this review. It is also developing a
     nationwide “Special Emphasis” program, based on input from district offices, to concentrate its safety and health
     inspectorate on mines with excessive incidence, injury, and illness rates. Additionally, MSHA has taken steps
     to reinstate the program for accident reduction or a derivation of that program.

     MSHA has also developed a plan to encourage districts to achieve more consistency in inspections and
     enforcement nationwide. It also reviewed statistical data to better identify/forecast injury and fatality trends at
     mining operations, so as to focus their safety and health compliance specialists in areas where these events are
     more likely to occur.

     In the area of hazard complaints, MSHA continues to implement recommendations from an OIG evaluation that
     found more needed to be done to improve the intake, management, tracking, and analysis of complaints. To that
     end, MSHA has completed a final review of its Hazard Complaint Procedures Handbook, which addresses
     these areas of concern. The handbook will be distributed to all enforcement personnel and integrated into
     inspector training modules at the National Mine Health and Safety Academy.

     Finally, an OIG evaluation of MSHA’s handling of inspections at the W.R. Grace & Company Mine in Libby,
     Montana, identified five areas where MSHA could do more to protect miners and their families against the health
     risks of exposure to asbestos. Three key recommendations require rulemaking: (1) lowering the permissible
     exposure limits for asbestos, (2) using a more effective method to analyze fiber samples that may contain
     asbestos, and (3) better addressing take-home contamination from asbestos. In response to these
     recommendations, MSHA issued an advance notice of proposed rulemaking on March 29, 2002, to request
     public comment. The benefits of rulemaking addressing these three areas would be the reduction or elimination
     of asbestos-related diseases arising from exposure to asbestos. Two additional recommendations pertaining to
     education and training have been resolved and closed based on MSHA’s implementation of the OIG’s
     recommendations.




                                                                                     Semiannual Report to the Congress
66                                                                                    April 1, 2002–September 30, 2002
                              Funds Put to Better Use                      Appendix
                                  (Agreed to by DOL)



This schedule depicts the activity during the six-month reporting period for those funds that
were recommended by the auditor to be put to better use.

                                                                   Number           Dollar Value
                                                                  of Reports        ($ millions)


A. For which no management decision had
   been made as of the commencement of
   the reporting period                                               6                  2.2

B. For which a management decision was made
   during the reporting period                                        2

    •   Dollar value of recommendations
        that were agreed to by management                                                1.2

    •   Dollar value of recommendations
        that were not agreed to by management                                            0.1

C. For which no management decision had been
   made as of the end of the reporting period                         4                  0.9

D. For which no management decision has been
   made within six months of issuance                                 4                  0.9




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                67
           Appendix                      Funds Put to Better Use
                                         (Implemented by DOL)



This schedule depicts the activity during the six-month reporting period for those funds that
were recommended by the auditor to be put to better use.

                                                                 Number              Funds
                                                                of Reports       Recommended
                                                                                 for Better Use
                                                                                   ($ millions)

A. For which final action had not been
   taken as of the commencement of the
   reporting period (as adjusted)                                     6                14.5

B. For which management decisions
   were made during the reporting period                              1                  1.2

         Subtotals (A + B)                                            7                15.7

C. For which final action was taken
   during the reporting period                                        3

     •      Dollar value of recommendations
            that were actually completed                                                 3.2

     •      Dollar value of recommendations
            that management has subsequently
            concluded should not or could
            not be implemented or completed                                              0.1

D. For which no final action had been taken
   by the end of the period                                           4                12.4




                                                                    Semiannual Report to the Congress
68                                                                   April 1, 2002–September 30, 2002
             Resolution Activity Related to OIG -                      Appendix
        Issued Audit Reports (Questioned Costs)



This schedule shows the extent to which DOL management has taken steps, during the six-month
reporting period, to resolve the costs questioned as having been improperly expended. Audit
resolution occurs when management either agrees with the auditor’s finding and disallows those
costs that were questioned or decides that the expenditure should be allowed.


                                                               Number of         Questioned
                                                                Reports             Costs
                                                                                 ($ millions)

A. For which no management decision had
   been made as of the commencement of the
   reporting period (as adjusted)                                 58                93.9

B. Which were issued during the reporting
   period                                                         14                28.8

          Subtotals (A + B)                                       72               122.7

C. For which a management decision was
   made during the reporting period                               28

    •   Dollar value of disallowed costs                                             8.1

    •   Dollar value of costs allowed                                                5.2

D. For which no management decision had been
   made as of the end of the reporting period                     44               109.4

E. For which no management decision has been
   made within six months of issuance                             28                80.1




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                            69
           Appendix                       Agency Final Actions Related to OIG-
                                          Issued Audit Reports (Disallowed Costs)



This schedule presents the activity for costs that have been disallowed during the six-month
reporting period.

                                                                    Number             Disallowed
                                                                   of Reports             Costs
                                                                                       ($ millions)


A. For which final action had not been taken as of
   the commencement of the reporting period (as adjusted)              53                 17.4

B. For which management or appeal decisions
   were made during the reporting period                               25                   8.5

         Subtotals (A + B)                                             78                 25.9

C. For which final action was taken during the
   reporting period*

     •   Dollar value of disallowed costs that were
         recovered                                                                          4.4

     •   Dollar value of disallowed costs that were
         written off by management                                                          1.5

D. For which no final action had been taken by the end
   of the reporting period                                             55                 20.0**




*    Partial recoveries/write-offs are reported in the period in which they occur. Therefore, many
     audit reports will remain open awaiting final recoveries/write-offs to be recorded.

** Does not include $19.4 million of disallowed costs that are under appeal.




                                                                     Semiannual Report to the Congress
70                                                                    April 1, 2002–September 30, 2002
                      Delinquent Debts Owed to DOL                                    Appendix
                          (as of September 30, 2002)



Agency/Program                                Accounts                      Accounts                  Accounts
                                            Receivable                    Receivable                Receivable
                                               Current                    Delinquent                       Total
                                            ($ millions)                  ($ millions)              ($ millions)


BLS                                                  0.0                            0.1                       0.1

ESA:

    Black Lung                                     37.4                             2.8                     40.2

    FECA                                            22.9                          20.4                      43.3

    Back Wage                                        2.1                            9.8                     11.9

    Civil Monetary Penalties                         1.5                            6.1                       7.6

ETA                                                  0.8                            3.6                       4.4

MSHA                                                 0.8                          14.6                      15.4

OSHA                                                 8.8                          42.5                      51.3

PWBA                                                 0.4                            8.3                      8.7

Total                                              74.7                         108.2                     182.9


Note: These figures are provided by departmental agencies. They are unaudited and may represent estimates. Amounts
due to the Unemployment Trust Fund (interagency receivables, state unemployment taxes, and benefit overpayments)
are not included. Amounts due from other Federal agencies for FECA workers’ compensation benefits paid are not
included.




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                               71
           Appendix
                                                           Unresolved Audits over Six Months Old

     This schedule presents a summary of all audit reports that continue to remain unresolved for more than six months. For these reports, a management decision
     is still outstanding. (This schedule is required by Section 5(a)(10) of the Inspector General Act, as amended.)

Agency/Program             Date Issued        Name of Audit                                                    Report Number     Number of Recommendations   Questioned Costs
                                                                                                                                                                          ($)
Nonmonetary Recommendations and Questioned Costs:
Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit:
OASAM/Admin               6/15/95         FY 1994 DOL Consolidated Financials                                 12-95-004-07-001                  2                           0
CFO/Admin                 2/27/98         FY 1997 Consolidated Financials                                     12-98-002-13-001                  2                           0
CFO/Admin                 2/26/99         FY 1998 Consolidated Financials                                     12-99-002-13-001                  1                           0
CFO/Admin                 9/02/99         FY 1998 Management Advisory Comments                                12-99-009-13-001                  3                           0
CFO/Admin                 2/29/00         FY 1999 DOL Consolidated Financial Statement                        12-00-003-13-001                  3                           0
CFO/Admin                 7/20/00         FY 1999 DOL Management Advisory Comments                            12-00-006-13-001                  6                           0
CFO/Admin                 3/27/02         DOL Consolidated Financial Statement
                                            Findings and Recommendations                                      22-02-004-13-001                 10                           0
CFO/Admin                 2/22/00         DOL Consolidated Financial Statements                               22-01-006-13-001                  4                           0
CFO/Admin                 2/22/00         DOL Consolidated Financial Statements,
                                            FY 2000 Management Advisory Comments                              22-01-009-13-001                  1                           0
CFO/Admin                 3/27/01         DOL Managerial Costs                                                22-01-012-13-001                  1                           0

Pending Indirect Cost Negotiations:
ETA/UIS                   3/29/02            New Jersey Department of Labor Indirect Costs                    03-02-002-03-315                  4                    6,166,318
ETA/UIS                   9/21/01            Maryland DOL Licensing and Regulations Audit of Indirect Costs   03-01-006-03-315                 10                    9,833,059
ETA/DOWP                  2/11/02            National Council on the Aging                                    02-02-202-03-360                 13                      614,375
ETA/DSFP                  6/02/00            Central Valley Opportunity Center                                09-00-003-03-365                 13                      535,579

Final Management Decision Being Evaluated by OIG:
ETA/JTPA                  3/06/00          Single Audit: State of Iowa-1998                                   18-00-529-03-340                  4                           0

Final Management Decision Issued by Agency Did Not Resolve - OIG Negotiating with Program Agency:
ETA/UIS                   9/22/00         Single Audit: Michigan Consumer and Industry                        12-00-524-03-315                  2                           0
ETA/UIS                   9/26/01         Security Testing and Evaluation
                                            Audit of the Office of Workforce Security System                  23-01-004-03-315                  6                            0
ETA/SESA                  8/23/00         Single Audit: State of Florida                                      12-00-514-03-325                  4                            0
ETA/JTPA                  9/20/00         Florida Cash Management Practices                                   04-00-004-03-340                  2                    3,438,078
ETA/JTPA                  9/22/99         New Mexico Service Delivery Area                                    06-99-008-03-340                  2                            0
ETA/JTPA                  9/29/00         Single Audit: Commonwealth of Kentucky-1998                         12-00-528-03-340                  4                            0
ETA/DINAP                 6/08/00         Single Audit: Puyallup Tribe of Indians                             12-00-525-03-355                  4                            0
ETA/OJC                   9/22/99         Audit of Talking Leaves Job Corps Center                            06-99-010-03-370                  9                            0
ETA/OJC                   3/29/02         Job Corps' Student Transportation System                            09-02-200-03-370                  1                            0

Final Management Decision Not Yet Issued - Agency Awaiting Response from Internal Revenue Service:
PWBA                      03/29/02          PWBA Cash Balance                                                 09-02-001-12-121                  2                           0




                                                                                                                                             Semiannual Report to the Congress
72                                                                                                                                            April 1, 2002–September 30, 2002
           Appendix
                                                               Unresolved Audits over Six Months Old

Agency/Program               Date Issued        Name of Audit                                                          Report Number       Number of Recommendations           Questioned Costs
                                                                                                                                                                                            ($)
Extension of Time Requested by Grantee to Respond to Grant Officer's Initial Determination:
ETA/UIS                   3/22/02          Massachusetts Department of Labor and Workforce                            03-02-001-03-315                         5                      1,340,544
ETA/DINAP                 1/24/02          American Indian Community House, Inc.                                      02-02-204-03-355                         2                        293,419
ETA/DSFP                  3/29/02          Proteus, Inc.                                                              21-02-003-03-365                         4                        215,792
ETA/OJC                   3/29/02          Hawaii Job Corps Center                                                    03-02-003-03-370                        10                              0
ETA/WTW                   3/26/02          Pinellas Florida Welfare-to-Work                                           04-02-002-03-386                         1                        858,674
ETA/WTW                   3/18/02          City of Gary Welfare-to-Work                                               05-02-001-03-386                        24                        136,618
ETA/WIA                   2/26/02          The Workplace H1-B Technical Grant                                         02-02-207-03-390                         6                        140,000

Extension of Time Requested by Agency to Address Multi-Agency Issues:
ETA/Admin                 7/25/01         Single Audit: State of Louisiana                                            22-01-506-03-001                        28                     23,201,664
ETA/WTW                   3/26/02         Madison County Working Connection                                           04-02-001-03-386                         3                        358,229

Elevated to DOL Audit Follow-up Official for Resolution:
ETA/UIS                    2/26/01           New Mexico Department of Labor Year 2000 Grant Expenditures1             04-01-001-03-315                         3                        914,221

Final Management Decision Being Appealed or Awaiting Office of Solicitor Opinion:
ETA/JTPA                  9/25/98         Cherokee Nation                                                             06-98-009-03-340                         1                              0
ETA/OJC                   9/28/01         Audit of Loring Job Corps Center                                            02-01-212-03-370                         4                        691,220

Final Management Decision Not Yet Issued by Agency:
ETA/Admin                 11/29/99         Xpand Corporation                                                          18-00-001-03-001                         2                        106,757
ETA/UIS                   1/25/02          New York AUP Year 2000 Grant Expenditures                                  04-02-003-03-315                         4                      3,976,331
ETA/UIS                   9/21/01          Ohio Department of Job and Family Services’
                                               Year 2000 Grant Expenditures                                           04-01-006-03-315                         4                      1,085,283
ETA/UIS                   9/21/01          California Employment Development Department’s
                                               Year 2000 Grant Expenditures                                           04-01-008-03-315                         5                        848,643
ETA/UIS                   9/17/01          Montana Department of Labor and Industry’s
                                               Year 2000 Grant Expenditures                                           04-01-010-03-315                         3                        132,743
ETA/UIS                   4/17/00          Single Audit: State of Louisiana                                           18-00-534-03-315                         6                      2,429,691
ETA/SESA                  12/08/99         Puerto Rico Department of Labor and Human Resources                        02-00-203-03-325                         9                     15,814,678
ETA/SESA                  9/28/01          Real Property Issues Related to Federal Equity Properties                  06-01-003-03-325                         4                              0
ETA/JTPA                  7/31/00          Single Audit: State of New Mexico 1998, 1999                               12-00-500-03-340                        12                              0
ETA/JTPA                  5/18/01          Single Audit: Government of Guam                                           22-01-505-03-340                         2                        229,816
ETA/DINAP                 8/28/00          Single Audit: United Sioux Tribes of South Dakota                          12-00-519-03-355                         1                              0
ETA/DSFP                  9/26/00          Audit of Center for Employment and Training                                09-00-006-03-365                        15                      5,797,229
ETA/WTW                   5/22/00          Postaward Survey of Deveraux                                               03-00-006-03-386                         1                              0
ETA/WTW                   3/26/02          CEDA Welfare-to-Work Competitive Grant                                     05-02-002-03-386                        11                         86,519
ETA/WTW                   3/20/02          Industrial Exchange, Inc.                                                  06-02-004-03-386                         6                        561,649
ETA/WIA                   2/08/00          Vermont’s One-Stop Readiness                                               02-00-205-03-390                         4                              0
ETA/WIA                   2/22/00          Connecticut’s One-Stop Readiness                                           02-00-206-03-390                         5                              0
ETA/WIA                   2/22/00          New York’s One-Stop Readiness                                              02-00-207-03-390                         6                              0
ETA/WIA                   3/14/00          Illinois’ One-Stop Readiness                                               02-00-209-03-390                         3                              0

 1
  On October 2, 2002, the DOL follow-up official remanded the final determination to the ETA grant officer. The audit remains unresolved, pending the issuance of a revised final
 determination by the grant officer
                                                                                                                                                           Semiannual Report to the Congress
73                                                                                                                                                          April 1, 2002–September 30, 2002
           Appendix
                                                          Unresolved Audits over Six Months Old

Agency/Program             Date Issued       Name of Audit                                                  Report Number     Number of Recommendations   Questioned Costs
                                                                                                                                                                       ($)

ETA/WIA                    3/14/00           California’s One-Stop Readiness                               02-00-210-03-390                  6                           0
ETA/WIA                    3/22/00           Florida’s One-Stop Readiness                                  02-00-211-03-390                  3                           0
ESA/FECA                   3/29/00           FECA Performance Measures                                     22-02-006-04-431                  1                           0
CFO/ADMIN                  3/29/02           DOLAR$ Application Control Review                             23-02-003-13-001                 11                           0
DOL/MULTI                  9/16/99           Milwaukee Area American Indian Manpower                       05-99-009-50-598                 25                     352,693
DOL/MULTI                  9/20/99           SER Corporation of Kansas                                     05-99-021-50-598                  3                       3,783

Total Nonmonetary Recommendations and Questioned Costs:                                                                                    356                   80,163,605




Total Funds Recommended for Better Use:

Elevated to DOL Follow-up Official for Resolution:
ETA/UIS                   2/26/01            New Mexico Department of Labor Year 2000 Grant Expenditures   04-01-001-03-315                  1                     171,944

Final Management Decision Issued by Agency Did Not Resolve -- OIG Negotiating with Program Agency:
ETA/OJC                   3/29/02         Job Corps's Student Transportation System                        09-02-200-03-370                  1                     200,000

Final Management Decision Not Yet Issued by Agency:
ETA/JTPA                  9/20/00          Florida Cash Management Practices                               04-00-004-03-340                  1                     185,000

Pending Negotiations Between Auditee and DOL Contracting Officer:
ETA/OJC                   2/13/01         Memphis Cost Claim for Equitable Adjustment                      04-01-003-03-370                  1                     332,611


Total Funds Recommended for Better Use:                                                                                                      4                     889,555



Total Nonmonetary Recommendations, Questioned Costs, and Funds Recommended for Better Use:                                                 360                   81,053,160




                                                                                                                                          Semiannual Report to the Congress
74                                                                                                                                         April 1, 2002–September 30, 2002
            Appendix
                                                             Final Audit Reports Issued by the OIG
Strategic Goal                                                      Date Issued   Report Number         Number of   Questioned      Funds Put to        Other
Program Name                                                                                           Non-Monetary      Costs       Better Use      Monetary
     Name of Report                                                                                  Recommendations                                   Impact
                                                                                                                            ($)          ($)              ($)
Employment and Training
Job Training Partnership Act
    Single Audit: Commonwealth of Puerto Rico-1998                      4-24-02   22-02-509-03-340          0           225,273           0                 0

Job Corps Program
    Edison Job Corps Center Property Taxes                              8-23-02   02-02-209-03-370          0                 0           0                 0
    Treasure Island Job Corps Center Property Taxes                     8-22-02   02-02-210-03-370          0                 0           0                 0
    Acosta Job Corps Center                                             9-13-02   03-02-005-03-370          2                 0           0                 0

Welfare-to-Work Program
    Columbus Urban League Welfare-to-Work Program                       8-19-02   05-02-003-03-386          3            48,000           0                 0
    Single Audit: Chattanooga Area Urban League                         9-30-02   22-02-515-03-386          4                 0           0                 0
    Single Audit: Nogales Unified School District                       8-30-02   22-02-519-03-386          0            83,686           0                 0

Workforce Investment Act
    New York Work Alliance H-1B Technical Skills Training Grant         9-30-02   02-02-211-03-390          5           231,675           0                 0
    Metro North Regional Employment Board
      H-1B Technical Skills Training Grant                              9-26-02   02-02-212-03-390          3                 0           0                 0
    San Francisco Private Industry Council
      H-1B Technical Skills Training Grant                              9-30-02   02-02-213-03-390          2           915,985           0                 0
    League SEIU 1199 H-1B Technical Skills Training Grant               9-30-02   02-02-214-03-390          3           359,462           0                 0
    Southeastern Los Angeles H-1B Technical Skills Training Grant       9-30-02   02-02-215-03-390          4                 0           0                 0
    State of Ohio: Evaluation of Grant Obligations,
      Expenditures and Payments                                         9-20-02   04-02-004-03-390          0                 0           0                 0
    Performance Outcomes Reporting Oversight                            9-30-02   06-02-006-03-390          5                 0           0                 0
    Single Audit: State of Utah                                         6-12-02   22-02-511-03-390          8            58,547           0                 0
    Single Audit: Consorcio Del Suroeste                                8-08-02   22-02-521-03-390          3           172,050           0                 0
    Single Audit: State of Maryland                                     9-30-02   22-02-522-03-390          3           963,440           0                 0

Labor Statistics
    Security Test and Evaluation of BLS' General Support System         8-19-02   23-02-004-11-001          7                 0           0                 0

                       Goal Totals                                                18                        52         3,058,118          0                 0

Worker Benefits Programs
Unemployment Insurance Service
    State of Maryland Workforce Agency:
      UI Tax and Benefit Information System Security Audit              9-13-02   23-02-008-03-315          14                0           0                 0
    State of North Carolina Workforce Agency:
      UI and Tax Benefit Information System Security Audit              9-13-02   23-02-009-03-315          17                0           0                 0

                       Goal Totals                                                2                         31                0           0                 0



                                                                                                                             Semiannual Report to the Congress
75                                                                                                                            April 1, 2002–September 30, 2002
            Appendix
                                                             Final Audit Reports Issued by the OIG
Strategic Goal                                                        Date Issued   Report Number         Number of    Questioned   Funds Put to        Other
Program Name                                                                                             Non-Monetary    Costs       Better Use      Monetary
     Name of Report                                                                                    Recommendations                                 Impact
                                                                                                                          ($)            ($)              ($)

Worker Safety, Health, and Workplace Rights
Occupational Safety and Health
    Performance Audit of OSHA's Strategic Partnership Program             9-30-02   05-02-007-10-001          8                0          0                 0
    OSHA Software Management                                              8-19-02   23-02-005-10-001          3                0          0                 0
ESA Administration
    Security Testing and Evaluation of ESA's General Support System       9-12-02   23-02-006-04-001         13                0          0                 0

                       Goal Totals                                                  3                        24                0          0                 0

Departmental Management
ETA Management
    Single Audit: District of Columbia
       Department of Employment Services                                  9-30-02   22-02-508-03-001          4                0          0                 0
    Single Audit: State of Alabama                                        5-08-02   22-02-510-03-001          1           50,864          0                 0
    Single Audit: State of New York                                       9-05-02   22-02-513-03-001          2                0          0                 0
    Single Audit: State of West Virginia                                  8-30-02   22-02-518-03-001          7          734,825          0                 0
    Single Audit: State of Maine                                          9-09-02   22-02-524-03-001          2                0          0                 0
OASAM Management
    Independent Verification of Selected DOL Agencies' Plans of Action
       and Milestones for Information Technology Security                 9-16-02   23-02-014-07-001          1                0          0                 0
CFO Management
    Alert Report: Department of Labor Accounting and Related Systems -
       General Controls and Security                                      8-30-02   23-02-013-50-598          7                0          0                 0
Multi-Agency
    Single Audit: State of Florida                                        8-06-02   22-02-512-50-598         21        23,843,607         0                 0
    Single Audit: State of Ohio                                           7-19-02   22-02-516-50-598         13                 0         0                 0
    Single Audit: State of Missouri                                       8-06-02   22-02-517-50-598          2                 0         0                 0
    Single Audit: State of Montana                                        8-30-02   22-02-520-50-598          8         1,032,569         0                 0
    Single Audit: State of Iowa                                           8-27-02   22-02-525-50-598         11            78,959         0                 0
    Government Information Security Reform Act Evaluation Report          9-16-02   23-02-015-50-598          0                 0         0                 0

                       Goal Totals                                                  13                       79        25,740,824         0                 0

                       Report Totals                                                36                       186       28,798,942         0                 0




                                                                                                                             Semiannual Report to the Congress
76                                                                                                                            April 1, 2002–September 30, 2002
            Appendix
                                                             Final Evaluation Reports Issued by the OIG
Strategic Goal                                                       Date Issued   Report Number        Number of    Questioned     Funds Put to        Other
Program Name                                                                                           Non-Monetary    Costs         Better Use      Monetary
     Name of Report                                                                                  Recommendations                                   Impact
                                                                                                                        ($)              ($)              ($)

Worker Benefits Programs
    Evaluation of the Domestic Child Labor Program                       9-26-02   2E-04-420-00017          0            0                0                 0


Departmental Management
    Evaluation of the DOL’s Presidential Management Intern Program       9-26-02   2E-07-753-00025          0            0                0                 0
    Evaluation of the DOL’s Telework Program                             9-26-02   2E-50-598-00052          0            0                0                 0




                                                                                                                             Semiannual Report to the Congress
77                                                                                                                            April 1, 2002–September 30, 2002
        Appendix
                                      Investigations: Detail of Accomplishments


                                                          Division                  Totals
                                                            Totals
Cases Opened:
      Program Fraud                                            126
      Labor Racketeering                                        68                     194

Cases Closed:
      Program Fraud                                            214
      Labor Racketeering                                        68                     282

Cases Referred for Prosecution:
      Program Fraud                                            126
      Labor Racketeering                                        44                     170

Cases Referred for Administrative/Civil Action:
      Program Fraud                                             71
      Labor Racketeering                                         7                       78

Indictments:
       Program Fraud                                           113
       Labor Racketeering                                      116                     229

Convictions:
      Program Fraud                                            107
      Labor Racketeering                                        98                     205

Debarments:
     Program Fraud                                               2
     Labor Racketeering                                         15                       17

Recoveries, Cost Efficiencies,
Restitutions, Fines/Penalties,
Forfeitures, and Civil Monetary Actions:
       Program Fraud                                  $114,067,660
       Labor Racketeering                              $72,351,980          $186,419,640




                                                           Semiannual Report to the Congress
78                                                          April 1, 2002–September 30, 2002
                                                              Appendix
      Investigations: Detail of Accomplishments




Recoveries:                                                         $45,042,852

   (The dollar amount/value of an agency’s action
   to recover or reprogram funds or to make other
   adjustments in response to OIG investigations)

Cost Efficiencies:                                                  $99,223,513

   (The one-time or per annum dollar amount/value of
   management’s commitment, in response to OIG
   investigations, to utilize the government’s resources
   more efficiently)

Restitutions:                                                        $8,616,769

   (The dollar amount/value of restitutions resulting
    from OIG criminal investigations)

Fines/Penalties:                                                    $32,596,841

   (The dollar amount/value of fines, assessments,
   seizures, investigative/court costs, and other penalties
   resulting from OIG criminal investigations)

Civil Monetary Actions:                                               $939,665

   (The dollar amount/value of forfeitures, settlements,
   damages, judgements, court costs, or other penalties
   resulting from OIG civil investigations)

Total:                                                             $186,419,640




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                            79
                 Appendix
                                                                    Investigations Case List

                                                                        Convicted                     Sentenced                                Monetary1
FOREIGN LABOR CERTIFICATION
ADELEKE, EBENEZER                                                            X                              X                                         $100
BOATENG, NOAH                                                                X                              X
BOGARDUS, RONALD                                                             X
BUKOVCAK, IVO                                                                X                              X                                         $100
FRANCOIS, SANDRA                                                             X                              X
GESNER, PIERRE                                                               X                              X
HAMEED, ABDUL                                                                X
KALEJAIYE, MATTHEW                                                           X                              X                                        $100
LAKIREDDY, ANNAPURNA                                                         X                              X                                      $2,000
LAKIREDDY, JAYAPRAKASH                                                       X                              X                                     $30,000
LAKIREDDY, VIJAY                                                             X
“PRE-TRIAL DIVERSION”2                                                       X                             X                                      $46,313
MUTIA, ALICIA                                                                X                             X                                      $25,550
RYAN, ANTIA                                                                  X                             X                                     $390,641
TRAORE, ISMAEL                                                               X                             X
Total                                                                        15                            12                                    $494,804

EMPLOYEE MISCONDUCT
CLARKE, GEMMA                                                                 X                             X                                    $325,924
ENDERBY, JAMES                                                                X                             X                                        $100
PEREZ, RICARDO                                                                X                             X                                     $57,000
REILLY, BRIAN                                                                 X
TOALA, SIRIA                                                                  X                             X                                    $298,323
Total                                                                         5                             4                                    $681,347

ESA - BLACK LUNG
ALEXANDER, BRIAN                                                              X                             X                                      $2,257
MODI, KAILAS, M.D.                                                            X                             X                                     $20,300
MODI, VINOD, M.D.                                                             X                             X                                  $3,565,300
Total                                                                         3                             3                                  $3,587,857

ESA - FECA
ADAMS, THERESA                                                                X                             X                                     $48,000
ALEXANDER, MARIA                                                              X
ALLMOND, CHARLES                                                              X                             X                                      $1,553
ARAGON, JOLENE                                                                X                             X                                      $3,474
ARAGON, MARK                                                                  X                             X                                        $100
BATTLE, RICHARD                                                               X                             X                                      $2,757
BAYLOR, PATRICIA                                                              X                             X                                     $16,477
BUCKLEY, JOSEPH                                                               X                             X                                     $11,381
GIBBS, GLENDA                                                                 X
GREENFIELD, BERNADETTE                                                        X
HAYES, ANTOINETTE                                                             X
HOWARD, LEROY                                                                 X
JABLONSKI, VALENTINA                                                          X                             X                                     $25,100
JEANE, JIMMY                                                                  X                             X                                     $35,629
LINCOLN, TIMMOTHY                                                             X                             X                                     $13,561
LUCIA, JAMIE                                                                  X                             X                                     $27,270
MARTINS, LOUIS                                                                X
MATHEWS, KYLE                                                                 X                             X                                     $19,164
MCDONALD, JOHN                                                                X                             X                                        $850
MITCHELL, KAREEM                                                              X                             X                                     $10,142
MOORE, DOUGLAS                                                                X
MOORE, JOYCE                                                                  X                             X                                      $9,241
MORFIN, ELIUD                                                                 X                             X                                     $93,652
PENZO, LAURA                                                                  X
PHILIPOSE, MARIAMMA                                                           X
RECOVERY ANALYSIS                                                             X                             X                                    $178,346
SCHLUETER, DARRELL                                                            X                             X                                    $113,000
1
    Monetary results include restitutions and fines that result from criminal court sentencings. They do not include administrative   recoveries or cost
    efficiencies realized by the government.

2
    A pre-trial diversion is occasionally offered to first-time Federal offenders who are not considered risks to repeat their criminal behavior.
    The defendant is generally offered this option after they have been indicted for a specific crime. The defendant pleads guilty to the crime
    and is given a period of probation during which they are expected to make restitution for their crime and not to commit any other crime.
    If they successfully complete this period of probation, their guilty plea is removed from the record and all charges are dropped.


                                                                                                            Semiannual Report to the Congress
80                                                                                                           April 1, 2002–September 30, 2002
                                                                    Appendix
                             Investigations Case List

                                           Convicted    Sentenced              Monetary
SCHULTZ, CHARLES                              X             X                   $39,376
THOMPSON, AUDREY                              X             X                    $8,734
VAUGHAN, MARGARET                             X
WILKINS, STEPHANIE                            X            X                     $1,309
WILSON, JACK                                  X            X                    $31,000
Total                                         32           22                  $690,116

ESA - LONGSHORE
BLOOM, BRYAN                                  X            X                    $15,047
Total                                         1            1                    $15,047

ESA - WAGE AND HOUR
AZIZ, MOHAMMED                                X
FOSTER, JESSE                                 X            X                    $47,031
GORGES, EDWARD                                X
GREGOREK, ROBERT                              X
KAJACS CONTRACTORS, INC.                      X            X                   $144,073
PERSONS, MICHAEL                              X            X                   $139,072
SALKE, STEVE                                  X            X
SAN LUIS GONZAGA CONST.                       X
SANDOR, ANDREW                                X
TALAO, GERARDINA                              X
TALAO, VIRGILIO                               X
Total                                         11            4                  $330,176

ETA - JTPA
ALEXIS, KELVIN                                X
ALEXIS-DONAWA, PATRICIA                       X
ALVAREZ, CARLOS                               X
JONES, KEITH                                  X            X                     $9,086
KOONS, THOMAS                                 X
Total                                         5             1                    $9,086

ETA - UNEMPLOYMENT INSURANCE/SWA
ACOSTA, SHANE                                 X            X                     $3,515
ATKINS, MICHAEL                               X            X                     $5,600
“PRE-TRIAL DIVERSION”                         X            X                     $1,746
“PRE-TRIAL DIVERSION”                         X            X                     $3,996
BLOUNT, CATHERYNE                             X
BOLES, KENNETH                                X            X                       $196
BOLLIN, GERALD                                X
“PRE-TRIAL DIVERSION”                         X            X                     $4,019
BOURGEOIS, JOSEPH                             X            X                     $4,615
BOYD, TRACEY, SR.                             X
BRAZIEL, ALONZO                               X            X                   $119,555
“PRE-TRIAL DIVERSION”                         X                                  $2,924
BROWN, PATRICIA                               X            X                     $5,389
CARDENAS, JAVIER                              X            X                    $11,817
CARDENAS, MARIA                               X
CARDENAS, RODRIGO                             X            X                    $11,817
CLARKE, ANTHONY                               X            X                    $22,610
COKER, ROCHELLE                               X            X                     $1,110
CULLIER, TOMMY                                X            X
“PRE-TRIAL DIVERSION”                         X            X                     $3,885
DAVIS, DENICE                                 X            X                     $2,607
DAVIS, LANCE                                  X
“PRE-TRIAL DIVERSION”                         X            X                     $4,394
DAY, ROCHELLE                                 X            X                     $1,114
EPPS, RAYMOND                                 X            X                     $7,045
EPPS, ZACK                                    X            X                   $321,339
FARRIA, ROY                                   X            X                     $4,615
FARRINGTON, DEBORAH                           X            X                     $3,810
FINLEY, RODDIS                                X            X                     $8,131
“PRE-TRIAL DIVERSION”                         X            X                     $4,300
GASKINS, HENRY                                X            X                     $4,185
“PRE-TRIAL DIVERSION”                         X            X                     $3,095



Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                    81
          Appendix
                        Investigations Case List

                          Convicted       Sentenced                   Monetary
GINYARD, VIRGIL              X                X                         $4,238
GREEN, SHERIDAN              X                X                         $3,051
“PRE-TRIAL DIVERSION”        X                X                         $4,500
HARDISON, SYLVESTER          X                X                         $3,596
HAWKINS, MARK                X                X                         $4,720
HUDSON, DEVERICK             X
JACKSON, MARLON              X               X                           $4,552
“PRE-TRIAL DIVERSION”        X               X                           $3,655
JOHNSON, EDDIE               X               X                         $135,169
JONES, CHARLES               X                                             $824
LEONOR, PERLA                X
LEWIS, TRACY                 X               X                           $4,052
LEWIS, WILLIAM               X               X                           $3,397
MARBERRY, JEFFREY            X               X
MARSHALL, KEVIN              X               X                           $4,400
MCCOY, SANDRA                X
MORAN, RENELL                X               X                           $6,721
MUHAMMAD, TRACY              X               X                           $3,952
NEW, CAROLYN                 X               X                           $1,306
NUNN, CANDACE                X               X                          $33,655
OBAN, DENNYSE                X               X                             $275
PATTERSON, ALVIN             X               X                          $28,613
PEOPLES, JEROME              X               X                           $4,238
RIOS-MEJIA, JORGE            X
ROBERTSON, LEELLA            X               X                          $17,350
ROBINSON, WILLIE             X               X                          $49,862
SANCHEZ, LETICIA             X               X                           $2,661
SELLERS, DARRON              X               X                           $5,190
SHANNON, FRANK               X               X                           $4,715
“PRE-TRIAL DIVERSION”        X               X                           $4,388
SHEPARD, ANTHONY             X               X                          $23,428
SHEPARD, CRYSTAL             X
SILVA, JESUS                 X
SILVA, MARIA                 X
SWANSON, JEFFERY             X               X                           $4,615
TOUSSAINT, JAKE, JR.         X               X                           $3,463
TRAVELLIN, RICHARD           X
WHITE, MICHAEL               X               X                           $1,600
WILLIAMS, CARL, JR.          X               X                           $5,402
“PRE-TRIAL DIVERSION”        X               X                           $1,280
WILLIAMS, MARLA              X               X                           $3,414
WOODS, MARY                  X
Total                        74              58                        $949,711

ETA - WELFARE-TO-WORK
GREENGAS, MILTON             X               X                        $573,000
NACLERIO, SANDRA             X               X                        $468,000
Total                        2               2                       $1,041,000

OSHA
ACOSTA, RAMON                X               X                             $10
JUNGER, MOSHE                X               X                             $10
Total                        2               2                             $20

OTHER
ROMINE, LINDA                X                                            $327
Total                        1                                            $327

BENEFIT PLAN
AQUILA, FRANK                X
BEAT PUBLICATIONS,           X               X                       $1,345,603
BIGHAM, EDWARD, JR.          X               X                           $5,000
BLUESTEN, DANIEL             X               X                        $143,554
BOELENS, MARTIN              X
BOYD, ROBERT                 X
BROWNE, JAYMES               X               X
BUCCI, ANTHONY               X               X                         $987,000


                                              Semiannual Report to the Congress
82                                             April 1, 2002–September 30, 2002
                                                                    Appendix
                             Investigations Case List

                                           Convicted    Sentenced              Monetary
BUCCI, CHERYL                                 X
CAMBRELEN, JAIME                              X            X                       $3,500
CANDELARIA, MARIANA                           X            X                      $76,856
CEASAR, SINCLAIR                              X            X                         $900
CIPPERONI, JOSEPH                             X            X                       $3,000
CLOSE, WILLIAM                                X            X                    $444,951
CURRENT, STAN                                 X            X                   $1,345,603
DAHER, MICHAEL, SR.                           X            X                   $1,682,410
DIXON, LINDA                                  X
DUNCAN, EUGENE                                X            X                        $100
DUNSMOOR, JOHN                                X
ESPOSITO, THOMAS                              X            X                    $841,726
GAINES, STEPHEN                               X            X                   $1,872,248
GLOBAL STAFFING SERV.                         X            X                      $57,000
“PRE-TRIAL DIVERSION”                         X            X                      $35,000
GRAYSON, BARCLAY                              X            X                    $500,000
GRAYSON, JEFFREY                              X
HERNANDEZ, LUIS                               X            X                     $33,839
ISELY, CHARLES, III                           X
JANITORIAL MAINTENANCE                        X            X                      $24,000
KATZ, NEAL                                    X            X                   $1,872,248
KLIKAS, IRENE                                 X            X                      $27,244
KRAEMER, JOHN                                              X
LONTINE, JOHN                                 X
MARQUEZ-DELAPLATA, ROGER                      X            X                    $135,508
MARZANO, DAVID                                X            X                      $4,000
MARZANO, SHERRI                               X            X                      $3,000
MAYHEW, ROBERT                                X
MICCICHE, ANTHONY                             X
NEWMAN, GRACE                                 X
POWERS, CHRISTOPHER                           X            X                       $3,000
PRYOR, SHAWNA                                 X            X                       $5,184
PRZYBYLSKI, WALDEMAR                          X            X                       $2,000
RIOS, JANICE                                  X            X                      $33,879
RIOS, MIGUEL                                  X            X                      $36,088
ROACH, CHRIS                                  X            X                   $3,719,274
SAMUELS, DWAYNE                               X            X                         $100
SHIPSEY, GEORGE                               X
SPENCER, THOMAS                               X
TRINGALE, RICHARD                             X            X                   $3,719,074
VARIO, PETER                                  X
VASQUEZ-RUIZ, FELIX, M.D.                      X            X               $4,071,700
VVSS COMPANY                                  X            X               $21,000,000
WEINSTEIN, DAVID                              X            X                 $601,300
WEIR, DONALD                                  X            X                 $160,796
Total                                         52           38              $44,796,685

INTERNAL UNION
BODE, MELANIO                                 X
BURRESS, JOSEPH                               X
CAMPANELLA, FRANK                             X            X                      $5,100
CARRILLO, GILBERT                             X            X                      $1,000
CHARGOIS, LINDA                                            X                     $35,191
CREED, RHONDA                                 X
DELANEY, LORRI                                X
D’ONOFRIO, JOSEPH, JR.                        X
FRICKER, WILLIAM                              X
GOCHIS, MICHAEL                                            X
JOHNSTON, TERRELL                             X            X                     $18,770
JONES, STEPHEN                                X            X                     $90,000
JOSSELYN, CATHY                               X
KIM, BYRAN                                    X            X
LACY, DEE DEE                                 X            X                      $2,500
LOPEZ, JEREMIAS                               X            X                     $10,839
MCCORMACK, JAMES                              X
MINERD, CHRIST                                X            X                      $8,850
MINGIONE, JOHN                                X


Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                      83
         Appendix
                        Investigations Case List

                          Convicted       Sentenced                   Monetary
MURRAY, JOHN                 X
PANNUTTI, EDWARD             X               X                          $19,302
PORTORREAL, GEORGE           X               X                             $100
RAMSEY, EDWARD               X
ROSARIO, DAVID               X               X                             $100
SABA, ALEX                   X               X                          $11,800
SABATINE, JAMES              X               X                          $93,252
SAO, LAWRENCE                X               X
SMITH, RENEE                 X               X                             $400
TERLECKI, JOHN               X               X                           $1,000
TRAFICANT, JAMES, JR.        X               X                         $176,000
VASQUEZ, AGUSTIN             X               X                           $9,600
WALKER, WILLIE               X               X                          $68,523
Total                        31              22                        $552,327

LABOR MANAGEMENT
ABRUZZO, JOSEPH              X               X                           $3,600
ANTONIELLA, ANTHONY          X               X
ARANCIO, STEPHEN             X
BOOTHE, RICHARD              X               X
BORGNONE, SALVATORE          X
CAMPANELLA, JOHN, JR.        X               X
CAMPANELLA, JOHN, SR.        X
CAPICHANA, MARK              X               X
CARACAPPA, PHILLIP           X
CASTORE, RALPH               X
CERCHIO, VINCENT             X               X
CHEDDIE, CHRISTOPHER         X               X
DAMBROSIA, DANIEL            X               X                           $6,000
DIBERARDINO, ANTHONY         X
FERRARA, STEVEN              X
GALLO, JAMES                 X               X
GASH, STANLEY                X               X
GIACOBE, JOSEPH              X               X
HANSEN, JOHN                 X
HASSAN, NORMAN               X
JONES, GUITANA M.            X
JULIANO, JOSEPH              X
KAMINSKI, PETER              X
LETO, FRANK                  X
MAGGIO, JOHN                 X               X
MIGLIORATO, JOSEPH           X               X                          $12,500
MURACA, JOSEPH               X
PALOSCIO, WESTLEY            X
PINSKY, ROBERT               X               X                           $6,000
RIVERA, FELIX                X               X
ROMANO, VINCENT              X                                           $2,000
SAHAKIAN, GREGORY            X
SALVATA, THOMAS              X               X                           $2,000
SCLAFANI, JOSEPH             X               X                           $2,500
SGAMBATI, FRANK              X
STRIPOLI, ANTHONY            X
TIMPANO, DOMINICK            X
TUFANO, LOUIS                X               X
UNDERWOOD, WENDELL           X
VOLPE, ROBERT                X               X
WILSON, EUGENE               X
Total                        41              19                         $34,600

WORKER EXPLOITATION
BONILLA, JOAQUINA            X               X                            $100
GARCIA BURGOS, PEDRO         X
RUIZ CRUZ, RAFAEL            X
SANCHEZ, MAGDALENA           X               X                           $3,200
Total                        4               2                           $3,300




                                              Semiannual Report to the Congress
84                                             April 1, 2002–September 30, 2002
                                                                            Appendix
                                    OIG Hotline Activity


The OIG Hotline provides a communication link between the OIG and persons who want to report
alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of authority;
or danger to public health and safety. During this reporting period, the OIG Hotline received a total
of 1,867 contacts. Of these contacts, 358 allegations required additional review. Listed below is a
breakdown of those 358 allegations.

Total Contacts for This Period:                                                                1,867

Allegation Reports by Source:

   Hotline Operations – Calls, Letters, and Walk-ins
        from Individuals or Organizations                                                        307

   Letters from Congress                                                                          11

   Letters from DOL Agencies                                                                      13

   Incident Reports from DOL Agencies                                                              1

   Reports by OIG Components                                                                       4

   Letters from Non-DOL Government Agencies                                                       16

   Government Accounting Office                                                                    6

   Total                                                                                         358

Allegation Reports by Referral:

   Referred to OIG Components                                                                     72

   Referred to DOL Program Management                                                            183

   Referred to Other Agencies                                                                     71

   No Further Action Required                                                                     32

       Total                                                                                     358




Semiannual Report to the Congress
April 1, 2002–September 30, 2002                                                                  85
